office of inspector gener al
semiannual report

    to congress

  OCTOBER 1, 2013 to M ARCH 31, 2014
                                    FOREWORD 

In the last two Semiannual Reports we have stressed the importance ofinternal controls.
Simply put, without an effective internal control program an organization may never reach its
true potential. Internal controls are essential for improving efficiency and program
effectiveness. The National Archives and Records Administration (NARA) continues to be
challenged in this area. NARA has an incredibly talented and dedicated staff, but without an
effective internal control program, NARA staffmembers do not have all ofthe tools they need to
make positive changes for the agency.

Unfortunately, NARA 's struggles with implementing and executing an internal control program
are not limited to one or two offices or programs. NARA has a systematic, agency-wide
deficiency which must be addressed. As we have stated before, as the Federal budget situation
becomes increasingly constrained, internal controls only gain importance. For NARA to meet
the agency's mission, and to reach its true potential as an organization, it must expend
increased effort in this area. Senior leadership report they have embraced internal controls and
acknowledge their importance. However, NARA is at the beginning of what needs to be a
prolonged and intensive effort. An internal control is a process; it must be monitored, evaluated
and adapted to provide the best results through continuous improvement. Senior leadership
needs to make sure their acceptance ofthis fact spreads through the entire agency, and they
provide NARA staffthe resources necessary to make it happen.

The effects ofa lack ofan effective internal control program permeate the work ofthe entire
agency, affecting even the work ofthe Office ofInspector General (OIG). As noted in our
ongoing audit peer review, NARA is drastically behind in creating action plans to address audit
recommendations. These delays can undermine the audit's potential to improve the agency.
Accordingly, NARA must identify and address the cause ofthese delays. We look forward to
resolving these issues and continuing to independently provide the services necessary to help
NARA improve.

I am proud ofthe work we have accomplished this semiannual reporting period, and ofthe
ongoing work being executed by this office. The employees ofthe OIG remain hardworking
and dedicated to our mission. I thank those individuals who have come to support this office
and help us conduct its necessary work. We have an ambitious agenda ahead ofus in the
coming months, and I look forward to presenting the results ofthis effort in future reporting
periods.




                                             9::::rin~
                                                   Acting Inspector General




SEMIANNUAL REPORT TO CONGRESS
October 1, 2013 to March 31, 2014                                                  Page i
TABLE OF CONTENTS

Foreword......................................................................................................................................... i


Executive Summary .......................................................................................................................2 


Introduction ...................................................................................................................................5 


Activities .........................................................................................................................................7 


Audits ...........................................................................................................................................10 


           Management and Oversight of NARA's Energy Savings Performance Contracts ...11 

           NARA’s Payments to Federal Agencies (excluding GSA)............................................11 

           Use of Presidential Library Facilities by Outside Organizations ................................12 

           NARA Field Office Acquisition Activities .....................................................................12 

           NARA’s Fiscal Year 2013 Financial Statement Review ...............................................13 


Investigations................................................................................................................................14 


           General Investigations .....................................................................................................15 

           Archival Recovery Team Activity ..................................................................................16 

           Computer Crimes Unit ....................................................................................................19 

           OIG Hotline ......................................................................................................................20 


Disagreements with Significant Management Decisions ..........................................................21 


Top Ten Management Challenges .............................................................................................23 


Reporting Requirements ............................................................................................................28 


Prior Fiscal Years' Open Audit Recommendations..................................................................33 





 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.



SEMIANNUAL REPORT TO CONGRESS                                                                                                            Page 1

October 1, 2013 to March 31, 2014

EXECUTIVE SUMMARY

This is the 51st Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of NARA’s top ten management challenges is included as
well. The highlights of our major functions are summarized below.

                                    Audits and Reports
The Audit Division continued to examine NARA’s Information Technology (IT) systems,
including the Electronic Records Archives (ERA) system, and assess the economy and
efficiency of NARA’s programs and operations. During the reporting period, we issued the
following audit reports and management letters.

Programs and Operations
   •	 Management & Oversight of NARA’s Energy Savings Performance Contracts
       (ESPCs). Since 1999, NARA has awarded six ESPCs with a total value of over $24
       million. These multiyear contract vehicles are designed to enhance energy efficiencies
       whereby the savings generated are used to pay for the contracted enhancements.
       However, NARA’s inadequate management and oversight of ESPCs resulted in
       questionable payments exceeding $8.4 million, and placed the success of its ESPC
       energy efficiency efforts and investments at risk. (OIG Audit Report #14-01, dated
       January 30, 2014. See page 11.)

   •	 NARA’s Payments to Federal Agencies (excluding GSA). Overall, for the agreements
      we reviewed, the obligations appeared to be appropriate, and NARA appeared to receive
      services in accordance with contract agreements. However, we found some contract
      payments were authorized prior to either verifying amounts or reviewing contract
      documentation. (OIG Audit Report #14-07, dated April 2, 2014. See page 11.)

   •	 Use of Presidential Library Facilities by Outside Organizations. One main control
      for outside groups who want to use Presidential library facilities for functions is a
      mandatory NARA application form. However, organizations were not always required
      to complete these forms, and when they were, the forms were not always properly
      completed. This violates regulations and hinders the ability to review and determine
      whether the groups followed the rules and regulations. From the limited forms available,
      it appears some events may have involved prohibited religious activities. (OIG Audit
      Report #14-04, dated March 5, 2014. See page 12.)

   •	 NARA’s Field Office Acquisition Activity. NARA’s field office procurement
      activities generally appeared to be in compliance with the Federal Acquisition
      Regulation (FAR), and management controls over these acquisitions generally appeared
      to be adequate. However, increased attention is needed to further strengthen acquisition
      activity within NARA field offices. (OIG Audit Report #14-05, dated March 11, 2014.
      See page 12.)



SEMIANNUAL REPORT TO CONGRESS                                                          Page 2
October 1, 2013 to March 31, 2014
EXECUTIVE SUMMARY

   •	 NARA’s Fiscal Year 2013 Financial Statements. NARA received an unqualified
      opinion on their financial statements. There were no material weaknesses in internal
      control over financial reporting, no significant deficiencies, and no instances of
      noncompliance with certain provisions of laws and regulations. (Audit Memorandum
      #14-02, dated January 15, 2014. See page 13.)

Management Issues

   •	 Untimely Notification Hinders OIG’s Ability to Investigate Potential Theft and
      Places NARA Holdings at Risk. Neither the OIG nor the Holdings Protection Team
      (HPT) were notified as soon as possible of a recent incident at Archives II in which a
      researcher allegedly tried to conceal or steal NARA documents. Without timely
      notification of potential concealment or theft, the opportunity to conduct searches may
      be lost, and witness reliability may be compromised. If NARA employees delay
      notifying the HPT and the OIG, NARA holdings are at risk of permanent loss and
      damage. (OIG Management Letter #14-02, dated January 9, 2014.)

   •	 NARA Computer Internet Browser Settings. We identified a weakness in how
      NARA provides internet access on NARA-owned computers. This weakness had a
      direct effect on what evidence could be available in criminal and other investigations,
      and in fact had been exploited by an employee in a recent investigation. Due to the
      sensitive nature of the weakness, and the specificity with which it was addressed in the
      management letter, the contents of the letter will not be posted online. (OIG
      Management Letter #14-06, dated January 22, 2014.)




SEMIANNUAL REPORT TO CONGRESS                                                           Page 3
October 1, 2013 to March 31, 2014
EXECUTIVE SUMMARY

                                      Investigations

Significant accomplishments by the Office of Investigations (OI) during this reporting period
include:

   •	 The OI facilitated the return of 766 historical items to repositories across the country.

   •	 The Archival Recovery Team (ART) recovered a Presidential pardon signed by

      President Franklin Pierce that had been listed on the Missing Documents list. 


   •	 ART recovered a document from a Pennsylvania Civil War Prize case file dated August
      12, 1862.

   •	 Based on an OI referral, NARA recovered a page missing from a deck log for the U.S.S.
      Malvern.

   •	 The OI assessed critical incident law enforcement response plans at a NARA facility,
      and the OIG issued a report detailing the review and proposing suggestions for
      improvement.

   •	 The OI investigated allegations a private researcher concealed documents on their person
      and left a NARA facility. The OI found the researcher had in fact concealed personal
      papers under their clothing before leaving a NARA research room.

   •	 Two former NARA employees were sentenced to two years probation for destruction of
      Federal property.

The OI opened 12 investigations and 23 complaints for preliminary investigation, while closing
7 investigations and 25 complaints. At the end of this reporting period, the OI had 20 ongoing
investigations and 5 complaints. The OI referred one assessment to NARA management for
information and appropriate action. Fifty-two percent of the ongoing investigations and
complaints involve the potential alienation of NARA holdings. This number reflects continuing
OI efforts to identify and investigate lost, missing, and stolen NARA holdings.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 4
October 1, 2013 to March 31, 2014
INTRODUCTION

       About the National Archives and Records Administration

Mission
The National Archives and Records Administration serves American democracy by safeguarding
and preserving the records of our Government, ensuring the people can discover, use, and learn
from this documentary heritage. Further, the agency ensures continuing access to the essential
documentation of the rights of American citizens and the actions of their government; and
supports democracy, promotes civic education, and facilitates historical understanding of our
national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps citizens
hold them accountable. It ensures continuing access to essential evidence documenting the rights
of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 225 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to nearly 4.7 million cubic feet of records. These holdings also include, among other
things, letters, reports, architectural/engineering drawings, maps and charts; moving images and
sound recordings; and photographic images. Additionally, NARA maintains nearly 600,000
artifact items and approximately 523 terabytes of electronic records. The number of records
born and stored solely in the electronic world will only continue to grow, thus NARA developed
the Electronic Record Archives to attempt to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2013, NARA had 49.6
million online visits in addition to hosting 3.2 million traditional museum visitors, all while
responding to approximately 1.2 million written requests from the public. NARA also publishes
the Federal Register and other legal and reference documents, forming a vital link between the
Federal Government and those affected by its regulations and actions. Through the National
Historical Publications and Records Commission, NARA helps preserve and publish non-Federal
historical documents that also constitute an important part of our national heritage. Additionally,
NARA administers 13 Presidential libraries preserving the papers and other historical materials
of all past Presidents since Herbert Hoover.

Resources
In Fiscal Year (FY) 2014, NARA was appropriated $386.6 million. This included $370 million
for Operating Expenses (including the operations and maintenance of the Electronic Records
Archives system), $8 million for Repairs and Restoration of NARA-owned buildings, $4.5
million for the National Historical Publications and Records Commission (NHPRC), and $4.13
million for IG operations. With approximately 3,023 (estimated) Full-time Equivalents (FTEs),
NARA operates 46 facilities nationwide.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 5
October 1, 2013 to March 31, 2014
INTRODUCTION

                 About the Office of Inspector General (OIG)

The OIG Mission
The OIG serves the American citizen by improving the effectiveness, efficiency, and economy of
NARA programs and operations. As part of our mission we detect and prevent fraud and abuse
in NARA programs, and strive to ensure proper stewardship over Federal funds. We accomplish
this by providing high-quality, objective audits and investigations, and serving as an
independent, internal advocate. Unique to our mission among other OIGs is our duty to ensure
NARA protects and preserves the items belonging in our holdings, while safely providing the
American people with the opportunity to discover, use, and learn from our documentary heritage.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act of
2008, establishes the OIG’s independent role and general responsibilities. The Inspector General
reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA’s
performance, makes recommendations for improvements, and follows up to ensure economical,
efficient, and effective operations and compliance with laws, policies, and regulations. In
particular, the OIG:

•	 assesses the effectiveness, efficiency, and economy of NARA programs and operations;
•	 recommends improvements in policies and procedures to enhance operations and correct
   deficiencies;
•	 recommends cost savings through greater efficiency and economy of operations, alternative
   use of resources, and collection actions; and
•	 investigates and recommends legal and management actions to correct fraud, waste, abuse, or
   mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency, helping
ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
In FY 2014, Congress provided $4.13 million for the OIG’s appropriation, including
authorization for 22 FTEs. However, mandatory spending cuts under sequestration left the
OIG’s FY 2013 budget at approximately $3.9 million. At the beginning of the period there were
19 FTEs on board, but two audit positions were vacated. Currently the OIG has 17 FTEs on
board, including one Inspector General (currently on leave with pay), an Acting Inspector
General, one support staff, six FTEs devoted to audits, seven FTEs devoted to investigations, and
a counsel to the Inspector General.

Further, the OIG remains concerned we could lack funding to investigate an incident outside of
Washington, DC, at the end of the fiscal year. We feel it would not be prudent to ask for
increased appropriated funds each year for such a contingency. Instead, we have sought a
limited transfer provision from NARA, so we could ask for available end-of-year funds in such a
circumstance. However, NARA management does not support our position and states they will
not request such a transfer provision.


SEMIANNUAL REPORT TO CONGRESS                                                            Page 6
October 1, 2013 to March 31, 2014
ACTIVITIES

               Involvement in the Inspector General Community
Counsel of Inspectors General on Integrity and Efficiency (CIGIE)
Legislation Committee
The Legislation Committee provides regular and ongoing communication regarding legislative
issues and other matters of common interest between the Congress and CIGIE. Specifically, the
Committee provides timely information about congressional initiatives to the IG community;
solicits the views and concerns of the community in response to legislative initiatives and
congressional requests; and presents views and recommendations to congressional committees
and staff, the Government Accountability Office, and the Office of Management and Budget on
issues and legislation affecting the IG community. The OIG continues to serve as a member of
the CIGIE Legislation Committee. OIG counsel is involved in drafting the Committee’s
comments to Congress on potential legislation, and in other aspects of the Committee’s work.

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. The AIGA attended FAEC’s meeting to discuss topics such as financial statement audit
issues, audit training, opinion reports on internal controls, and information security.

Assistant Inspectors General for Investigations (AIGI) Committee
The AIGI Committee is a standing subcommittee to the CIGIE Investigations Committee. As a
member, the AIGI helps provide guidance, assistance, and support to the CIGIE Investigations
Committee in the performance of its duties. In addition, the AIGI Committee serves as a conduit
for suggestions, issues, and concerns affecting the OIG investigations community.

Investigations Committee Program Fraud Civil Relief Act Working Group
As a member of the Investigations Committee Program Fraud Civil Relief Act (PFCRA)
working group, the OIG counsel continued to contribute to promoting the use of PFCRA
throughout the IG community. A PFCRA manual has been produced by the Working group and
adopted for IG-wide use.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel continues to be an active member of the CCIG. The CCIG provides a rich
environment wherein legal issues can be raised and interpretations can be presented and
reviewed with an experienced network of OIG lawyers.

CIGIE Training Institute
The OIG counsel continued to work with the CIGIE Training Institute to develop and teach the
IG Authorities course.

Whistleblower Ombuds Working Group (WOWG)
In accordance with the spirit of the Whistleblower Protection Enhancement Act of 2013, the OIG
is forming a whistleblower ombuds program, and is working with the WOWG to learn best
practices and implement an effective training program.


SEMIANNUAL REPORT TO CONGRESS                                                           Page 7
October 1, 2013 to March 31, 2014
ACTIVITIES

                   Management Assistance and Other Work
•	 Provided comment and input into several NARA directives and regulations covering a
   variety of topics. This included NARA’s Anti-Harassment Program, NARA 396; NARA’s
   Enterprise Governance, Risk, and Compliance Program, NARA 160; NARA’s Internal
   Control Program, NARA 161; Use and Monitoring of NARA Office and Information
   Technology Equipment and Resources, NARA 802; and others.

•	 Assisted NARA during the government shutdown. The Assistant Inspector General for
   Investigations was designated as an exempt employee and continued to provide necessary
   OIG functions during the funding hiatus.

•	 Provided input to the draft Equal Employment Opportunity Commission Management
   Directive 110.

•	 Worked with NARA to publish a new System of Records Notice (SORN) in the Federal
   Register for OIG Investigative Records.

•	 Responded to multiple requests for OIG records under the Freedom of Information Act
   (FOIA), and coordinated with the Department of Justice (DOJ) on FOIA requests pertaining
   to joint work between the DOJ and NARA.

•	 Reviewed legislative and OMB proposals and provided feedback to appropriate entities, and
   reviewed newly passed legislation for its affect on NARA and the NARA OIG.


                               Peer Review Information

Peer Review of NARA OIG’s Audit Organization
The NARA OIG audit function was last peer reviewed by the Federal Communications
Commission (FCC) OIG in accordance with the Government Accountability Office’s
Government Auditing Standards (GAS) and CIGIE guidelines. FCC OIG concluded, “the
system of quality control for the audit organization of NARA OIG in effect for the year ended
September 30, 2010, has been suitably designed and complied with to provide NARA OIG with
reasonable assurance of performing and reporting in conformity with applicable professional
standards in all material respects. Federal audit organizations can receive a rating of pass; pass
with deficiencies, or fail. NARA OIG has received a peer review rating of pass.” There are no
outstanding recommendations from this review. The Federal Deposit Insurance Corporation
OIG began a peer review of NARA’s audit organization during this reporting period.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 8
October 1, 2013 to March 31, 2014
ACTIVITIES

Peer Review of NARA OIG’s Office of Investigations
NARA OIG’s Office of Investigations was last peer reviewed by the National Science
Foundation in May 2008. There are no outstanding recommendations from this review.

In February 2012, the Attorney General of the United States granted the Inspector General’s
application for statutory law enforcement authority. Accordingly, the OI has begun preparations
for the now mandatory peer review that must be completed within three years of being granted
statutory authority.

                          Response to Congressional Items

Federal Information Security Management Act (FISMA) Report

As required by FISMA, the OIG conducted an independent assessment of the effectiveness of
NARA’s information security program and practices. The scope of the assessment encompassed
11 program areas identified by the Office of Management and Budget (OMB) and the
Department of Homeland Security (DHS). Overall we found NARA has not established an
information security program consistent with FISMA, OMB policy, or NIST guidelines in any of
the 11 program areas. Many of the same weaknesses identified during the FY 2012 FISMA
evaluation have not been addressed because NARA has not defined the policy and procedures to
govern these areas. Policy and procedures are the starting point toward building an established
information security program consistent with FISMA’s requirements, OMB policy, and NIST
guidelines. We remain concerned NARA has decided to reclassify and downgrade the material
weakness in information security at a time when significant improvements and focused efforts on
these 11 areas are still needed.


The Government Charge Card Abuse Prevention Act of 2012, Public Law No.
112-194
This law mandates inspectors general conduct periodic risk assessments of agency purchase and
travel cards to develop a plan to determine the scope, frequency and number of audits or reviews
necessary. The law also requires inspectors general to annually report to the OMB Director on
the agency progress in implementing audit recommendations. We reported, at the end of FY
2013, NARA had four outstanding recommendations from two OIG audit reports from FYs 2008
and 2011.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 9
October 1, 2013 to March 31, 2014
AUDITS

                                                 Audit Overview

This period, we issued:

     • four final audit reports,

     • one audit memorandum, 1 and

     • two management letters. 2

We completed fieldwork on audits of:

    •	 NARA’s Capital Planning and Investment Control Process (CPIC), determining if
       NARA’s CPIC process and procedures were adequate, efficient, and in compliance with
       governing NARA policy and applicable Federal laws and regulations.

    •	 NARA’s Compliance with the Improper Payment Elimination and Recovery Act of 2010.

    •	 NARA’s Enterprise Wireless Access, assessing whether NARA’s policies, procedures,
       and technical controls provide adequate security over its wireless networks.

    •	 Special Telework Arrangements at NARA, determining if these arrangements were
       administered in accordance with NARA policy and procedures.

    •	 Selected Aspects of NARA’s Digitization Program, determining if management controls
       adequately address agency and customer needs, and ensure greater access to NARA
       holdings.

We initiated or continued work on audits of:

    •	 NARA’s Mobile Device Management, evaluating NARA’s efforts to secure and deploy
       mobile devices on the NARA network, and to maintain and adequately dispose of them.

    •	 Conference-Related Activities and Expenses, to evaluate internal controls over NARA-
       funded conference-related spending and the reasonableness of conference expenses.

    •	 Specially Protected Records (SPRs), to determine whether offices are protecting,
       controlling, handling, and accounting for SPRs in accordance with NARA guidance.




1 An audit memorandum is used when an audit is performed and there are either no findings or the findings are insignificant.
2 Management letters are used to address issues which need to be quickly brought to the Archivist’s or management’s attention.
They do not follow GAO’s generally accepted government auditing standards (GAGAS), nor are they intended to.

SEMIANNUAL REPORT TO CONGRESS                                                                                         Page 10
October 1, 2013 to March 31, 2014
AUDITS

                                    Audit Summaries

Management & Oversight of NARA’s Energy Savings Performance Contracts
The National Energy Conservation Policy Act of 1978, as amended, established the authority for
Federal agencies to enter into multiyear contracts with energy service providers for the
implementation of energy savings measures in exchange for a share of the energy savings
directly resulting from their implementation. Since 1999, NARA has awarded six of these
Energy Savings Performance Contracts (ESPCs), with a total value of over $24 million. We
audited NARA’s use of ESPCs to determine if the contracts were adequate, efficient, and
resulted in appropriate benefits for NARA.

Our audit found contract management efforts were not fully conducted in accordance with
established requirements and guidelines. Specifically, we found insufficient management of the
awards, savings verification, payments, reporting, funding, and early cancellations of such
contracts. As a result, NARA has made questionable payments exceeding $8.4 million, and
placed the success of its ESPC energy efficiency efforts and investments at risk.

We made 10 recommendations to more thoroughly ensure NARA’s efforts meet established
ESPC requirements and properly verify the guaranteed energy savings of its investments (OIG
Audit Report #14-01, dated January 30, 2014.)

NARA’s Payments to Federal Agencies (excluding GSA)
NARA contracts with various Federal agencies for security-related and building-specific services
using a variety of contract vehicles. In FY 2012 and FY 2011 NARA paid $7,886,775 and
$7,549,262, respectively, in rental payments to Federal agencies. Other agreements with Federal
agencies, including payroll and personal services, totaled $5,295,948 in FY 2012.

We reviewed NARA payments to Federal agencies, other than GSA, to ensure obligations were
appropriate and NARA received services in accordance with the contracts. Overall, for the
agreements reviewed, the obligations appeared to be appropriate, and NARA appeared to receive
services in accordance with the contract agreements. However, we identified a few weaknesses
in internal controls which require management attention:

   •	 NARA authorized some invoices without verifying the amounts were consistent with
      supporting documentation from GSA.
   •	 NARA authorized payment of building-specific security charges without supporting
      documentation, and without knowing if the correct amount was charged.
   •	 The point of contact on one contract agreement could not verify or document the
      individual dates guard services were requested, or when these services were performed.
      These factors are necessary to support the authorization to pay the invoice.

We made four recommendations which we believe, once implemented, will address the
weaknesses cited in this report. Management concurred with each recommendation and initiated
prompt corrective actions. (OIG Audit Report #14-07, dated April 2, 2014.)

SEMIANNUAL REPORT TO CONGRESS                                                           Page 11
October 1, 2013 to March 31, 2014
AUDITS

Use of Presidential Library Facilities by Outside Organizations
NARA’s building-use regulations, 36 CFR 1280.94, outline the permissible and prohibited uses
of Presidential library facilities by other groups. These regulations require outside organizations
apply to use library space by writing to the library director and submitting an Application for Use
of Space in Presidential Libraries, NA Form 16011 (16011). This audit reviewed the use of
16011s and sought to determine whether Presidential libraries were adhering to governing
NARA policy and applicable Federal laws and regulations in regards to the use of their facilities
by outside organizations.

In general, it appeared the Presidential libraries were complying with the intent of 36 CFR
1280.94. However, we found:

   •	 Presidential libraries do not always require outside groups to complete a 16011. By not
      requiring a completed 16011, these Presidential Libraries are not adhering to 36 CFR
      1280.94(c). In addition, the lack of a completed 16011 removes a control helping ensure
      groups do not improperly use library facilities, and increases the difficulty of reviewing if
      groups adhered to the regulations.
   •	 16011s associated with events were not properly completed. Not properly completing the
      form violates 36 CFR 1280.94(c), and hinders the ability to review and determine if
      regulations were followed.
   •	 Some events appeared to involve activities of a religious nature. These events may have
      violated 36 CFR 1280.94(d)(4), which states use of the auditoriums and other public
      places will not be authorized for any sectarian or similar purpose. It was not possible to
      determine conclusively if these events did or did not involve religious or sectarian
      activities based solely upon the description of the events found on the 16011 form. Thus,
      a lack of appropriate documentation, an important internal control activity, hindered our
      ability to ascertain whether or not these events adhered to 36 CFR 1280.94

We made five recommendations to improve the processes for allowing outside groups to use
Presidential Libraries. Management concurred with all five recommendations. (OIG Audit
Report #14-04, dated March 5, 2014.)

NARA Field Offices Acquisition Activities

We assessed whether field office acquisitions were awarded in accordance with the Federal
Acquisition Regulations (FAR) and other authorities, and the adequacy of management controls
over them. However, increased attention is needed to further strengthen acquisition activity
within NARA field offices. Specifically, we found:

   •	 Field office Contracting Officers (COs) did not receive required training prior to
      obtaining their CO certificate of appointment. In addition, proficiency training was not
      taken by all field COs in order to maintain their CO authority.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 12
October 1, 2013 to March 31, 2014
AUDITS

   •	 Completed contracts were not closed out in a timely manner in accordance with the
      FAR.
   •	 All field office contracts are not being reviewed by the field office support team

      for compliance with the FAR prior to award. 

   •	 NARA guidance for approval of small and small disadvantaged business utilization
      exceptions is not consistent.

We made four recommendations to further strengthen oversight of acquisition activity at NARA
field offices. Management concurred with all four recommendations. (OIG Audit Report #14­
05, dated March 11, 2014.)

NARA’s FY 2013 Financial Statement Review

We contracted with Cotton & Cotton LLP (C&C), a public accounting firm, to audit NARA’s
Consolidated Balance Sheets as of September 30, 2013, and 2012, and the related Statements of
Net Cost, Changes in Net Position, and Budgetary Resources. C&C issued NARA an
unqualified opinion on NARA’s FY 2013 and 2012 financial statements. C&C disclosed no
material weaknesses, significant deficiencies, or instances of noncompliance with certain
provisions of laws and regulations. There were no recommendations.

We monitored C&C to ensure the audit was conducted in accordance with the contract, and in
compliance with the Government Accountability Office’s Government Auditing Standards and
other authoritative references, such as OMB Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements. Our review disclosed no instances wherein C&C did not comply, in all
material respects, with the contract or GAO’s Government Auditing Standards. (OIG Audit
Report Memorandum #14-02.)




SEMIANNUAL REPORT TO CONGRESS                                                          Page 13
October 1, 2013 to March 31, 2014
INVESTIGATIONS

                                       Investigations

The Office of Investigations (OI) receives and evaluates complaints, and conducts investigations
related to fraud, waste, and abuse in NARA programs and operations. This includes identifying
and recovering alienated NARA holdings. Investigations showing violations of Federal law,
NARA Directives, or contract terms/specifications may result in administrative sanctions, civil
action, or criminal prosecution. Such actions can include employee terminations, contractor
debarments, and court-imposed prison terms, probation, fines, or restitution. The OI may also
issue Management Letters detailing systemic or timely problems or vulnerabilities, and offer
recommendations on how to correct them.

OI activities are broadly divided into two groups: general investigations and archival recovery
investigations. General investigations encompass the entire spectrum of criminal and
administrative investigations, including such topics as procurement fraud, employee misconduct,
and cyber crimes. Archival recovery investigations revolve around protecting NARA’s historical
holdings and returning items missing from NARA’s collection.

The OI has statutory law enforcement authority, and is presently staffed with six 1811 series
criminal investigators and an investigative archivist. The OI is based in the National Archives in
College Park, MD (Archives II), but conducts investigations at all NARA locations across the
country. The OI maintains a close relationship with NARA Security Services to coordinate law
enforcement efforts impacting NARA. Specifically, the investigative archivist routinely
coordinates efforts with the Holdings Protection Team, a NARA Security Services unit charged
with proactively protecting and securing NARA holdings. We also liaise with the Department of
Justice (DOJ), the OIG community, and other law enforcement agencies and organizations.

Investigative Initiatives

The OI conducts Investigative Initiatives to proactively identify and test vulnerabilities in NARA
programs and operations, and address other OIG concerns. As part of this program, the OI
periodically assesses the agency’s vulnerability to fraud, archival theft, and loss of sensitive
electronic data. These assessments may also be undertaken to review such things as employee
conflicts of interest, systemic weaknesses in operations and controls, incident responses taken by
NARA, and other administrative and criminal topics. Assessments are limited in scope to
quickly identify relevant information and transmit it to NARA management for appropriate
consideration or action.

This period, the OI conducted one assessment of critical incident law enforcement response plans
at a NARA facility. The OI issued a report to NARA management, and a response is pending.
Last period, the OI issued two Assessment Reports related to security at a Presidential library
and researcher registration procedures. However, responses from NARA are still pending.

The OI also collects information and documents general investigative activity in Intelligence
Files to improve our own efficiency and enhance the OI’s operational knowledge of NARA
programs, operations, and facilities. This period, the OI opened Intelligence Files related to
archival recovery, information security, and computer crimes.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 14
October 1, 2013 to March 31, 2014
INVESTIGATIONS

Overall Activity Summary

At the end of the last reporting period, 15 investigations were open. During this reporting
period, the OI opened 12 investigations and closed 7. The OI referred one of the closed
investigations to NARA for action and five for information only. At the end of this reporting
period, 20 investigations were open.

                                    General Investigations
Updates on Previously Reported General Investigations

Removal and Destruction of Records
Two former NARA employees destroyed Federal records at the National Personnel Records
Center in St. Louis, MO. Each pleaded guilty to one misdemeanor count of theft of government
property, and both were sentenced to two years probation.

Potential Transportation Benefit Fraud
After finding no evidence of criminal or administrative misconduct, the OI closed an
investigation into potential transportation benefit fraud.

Allegations of Fraud
The OI continues to investigate allegations a private entity did not comply with elements of a
cooperative agreement.

Theft of Funds from a Presidential Library
The OI continues to work jointly with local enforcement to investigate allegations a former
NARA employee stole funds from a Presidential library.

New General Investigation Highlights

Researcher Misconduct
The OI investigated allegations a private researcher concealed documents on their person and left
a NARA facility. The OI unsubstantiated the allegation, but found the researcher had in fact
concealed personal papers under their clothing before leaving a NARA research room.

Missing Laptop Computers
The OI initiated an investigation into a report from NARA management that three laptop
computers are missing from NARA inventory.

Unauthorized Access to NARA Records
The OI initiated an investigation into allegations of unauthorized access to NARA holdings at a
regional archives and records center.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 15
October 1, 2013 to March 31, 2014
INVESTIGATIONS

                    Archival Recovery Team (ART) Activity

ART is a concept that embodies the OI’s focus on recovering alienated Federal records. ART is
the teaming of agents with the expertise of an investigative archivist. These teams often work
with NARA archivists, the Holdings Protection Team, and other law enforcement organizations
responsible for investigating thefts, loss, or trafficking of cultural artifacts and fine art.

Thefts

ART investigates all allegations of theft of NARA holdings. Thefts may be internal or external
and involve NARA employees, contractors, interns, and researchers. ART refers all instances of
substantiated theft to the DOJ for potential criminal prosecution. ART also refers internal thefts
to NARA management for administrative action.

Non-criminal Recoveries

Individuals may intentionally or unknowingly alienate a Federal record before it is accessioned
into NARA’s holdings. Once identified, alienated records are subject to recovery through a legal
process known as replevin, a common law action to recover property unlawfully taken.

If ART receives allegations a record or item was alienated, our investigative archivist helps
establish if the record should have been accessioned into NARA’s holdings. If the record should
have come to NARA, ART refers this substantiation to the NARA Office of General Counsel
(NGC) to begin the replevin process or other methods of recovering the document, such as
voluntary donation. If the holder of the document is unwilling to release or donate a document,
NGC may also pursue recovery through the DOJ civil division.

Proactive

Tips from our public sentinels are critical to successfully recovering our nation’s records. To
leverage the power of their knowledge, ART engages in a variety of initiatives to establish
relationships within the historical artifacts community, and the public at large. Several times
every year, ART staffs a display at various historical artifact shows throughout the country. In
this reporting period, ART attended the Low Country Civil War Show in Charleston, South
Carolina, and the Washington Antiquarian Book Show.

ART maintains a Facebook page updating the public about upcoming shows and ART
happenings, along with other newsworthy items about document thefts, investigations, and
recoveries at NARA and other institutions worldwide. ART received 5,196 “likes” on its
Facebook page this reporting period. Visit the site at www.facebook.com/archivalrecoveryteam.

In this reporting period, ART also relied upon a NARA volunteer to search an internet auction
site for Federal documents. Finally, ART reviews NARA holdings, identifying items at risk for
theft and making recommendations to NARA about what records should be restricted or
protected.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 16
October 1, 2013 to March 31, 2014
INVESTIGATIONS

Missing Documents

Working in conjunction with NARA, ART has established a listing of documents identified as
missing from NARA holdings. Some of these documents are known to have been stolen, but
have never been recovered. Others have simply been identified by NARA archivists or
researchers as missing. In both cases, ART has little or no evidence to work with, so the
documents are listed on the NARA website in the hope of receiving viable leads to recover these
materials. During this period, ART received 12 complaints from the public and NARA staff
about Federal items for sale through online auction sites. ART’s Missing Documents email also
received five inquiries this period.

Please visit the website at www.archives.gov/research/recover/missing-documents.html to learn
more. If you have information about any documents listed on the site or believe you have seen a
Federal document in private hands, please email ART at MissingDocuments@nara.gov.

Updates on Previously Reported ART Investigations

Disposition of Stolen Historical Materials
As a result of a joint investigation with the Federal Bureau of Investigation, two subjects pleaded
guilty to conspiracy and theft of historical documents. The subjects stole materials from
numerous museums and other institutions, including seven reading copies of Presidential
speeches from the Franklin D. Roosevelt Library. Both subjects are currently incarcerated in
Federal prisons. This period, the OI transferred 766 additional items to private repositories
throughout the country.

Classified Material Unaccounted For at a NARA Records Center
An OI investigation into potentially missing classified records from a NARA records center was
closed pending completion of inventory validation of the facility’s classified storage area.
NARA now reports they identified 5,783 boxes with issues (including some potentially missing),
but have resolved the status of 4,746 (82%) of those boxes. NARA's work to resolve the status
of the remaining 1,037 continues, and the OI will monitor the situation to determine whether to
re-open or close-final this investigation.

Document Signed by Revolutionary War General
ART had previously discovered a document signed by Revolutionary War General Peter
Muhlenberg for sale. The document is consistent with holdings at the NARA Mid-Atlantic
region. ART previously referred this document to management for recovery, but additional
investigation is now necessary to determine to whom the document was sold. The investigation
is ongoing.

Recovery of a U.S. Army Continental Command Record
ART recovered a Weekly Station & Effective Force Report for the 2nd Cavalry Division, dated
October 2, 1865, and authored by Major General George Custer. The report had been listed on the
Missing Documents webpage, and an investigation is ongoing.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 17
October 1, 2013 to March 31, 2014
INVESTIGATIONS

Presidential Pardons
The OI initiated an investigation involving two Presidential pardons: one has been listed on the
Missing Documents list, and the other may also have been alienated from NARA holdings.

Missing Historical World War II Movies
The OI continues investigating allegations historical World War II movies are missing from the
National Archives in College Park, MD.

Page Missing from a U.S. Naval Deck Log
Based on an OI referral, NARA recovered a page missing from a deck log for the U.S.S.
Malvern. The page documents a visit by President Abraham Lincoln to the city of City Point,
Virginia, on March 25-26, 1865.

New ART Investigative Highlights

Holdings from an Affiliated Archive for Sale on Internet Auction Site
The OI received allegations records from an affiliated archive were for sale on an internet
auction site. A joint investigation is ongoing.

Recovery of Document from Civil War Prize Case File
Because of a report from a private researcher, the OI recovered a letter dated August 12, 1862,
from the Pennsylvania Civil War Prize case file for the CSS Defiance. An investigation is
ongoing.

Referrals for Recovery of Alienated Documents
The following referrals either remained ongoing, or were acted on during this reporting period.

   •	 Life-Saving Station Log Book
      A NARA employee found a life-saving station log book at another institution. The log
      book is consistent with holdings at the NARA Mid-Atlantic Region, and NARA
      management and NGC have agreed to seek recovery.

   •	 Alienated State Department Document for Sale
      A NARA researcher found a document for sale that may be part of a State Department
      record. The historically significant document contains handwritten annotations from
      President Franklin D. Roosevelt. NARA management is considering recovery.

   •	 Historic Letter for Sale
      ART found a letter for sale believed to have been alienated from NARA holdings. The
      letter is dated May 12, 1861, and concerns troops being fired upon by a mob in St. Louis,
      MO. NARA management is considering recovery.

   •	 Records of the U.S. Coast Guard
      Historical records related to Coast Guard activities in Philadelphia during World War II
      were sold online. These records are consistent with those held in the Mid-Atlantic
      Region, and NARA management is considering recovery.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 18
October 1, 2013 to March 31, 2014
INVESTIGATIONS

   •	 Department of Interior Photographs
      Photographic negatives commissioned by the U.S. Department of Interior were donated
      to a public university. NARA management is considering recovery.

   •	 Classified Documents in Personal Papers
      Classified documents were found among personal papers donated to a public university.
      Presidential library staff members are reviewing the documents for declassification and to
      identify any which should be among NARA's holdings.

                                    Computer Crimes Unit

In 2005, NARA OIG established a Computer Crimes Unit (CCU) within the OI. The CCU
provides laboratory and field support for digital evidence seized or surrendered to the NARA
OIG or other law enforcement agencies working with us. Digital evidence forensic support
services can include, among other things, computer forensic examinations on seized digital
media, on-site computer hard drive imaging, expert witness testimony, data analysis to determine
evidentiary value, and technical training. The CCU is staffed by one full-time 1811 series
computer crimes investigator.

During this reporting period, the CCU completed forensic examinations in support of criminal
and administrative investigations related to computer misuse, suspected access fraud, and threats
against NARA employees. The CCU continues to work with the NARA Inappropriate Use
Working Group, the Office of General Counsel, IT Security, and the Information Management
Branch to provide independent oversight and help ensure NARA assets are being utilized
properly and within the guidelines set for acceptable use.

New CCU Investigative Highlights

Threatening Behavior by a NARA Employee
The OI closed a joint investigation into allegations a NARA employee made threatening
comments to a NARA manager and misused a government computer. The OI substantiated the
employee used a NARA computer to store pornography, and the employee resigned.

Problems with IT Infrastructure at a NARA Facility
The CCU initiated an investigation into allegations of problems with IT Infrastructure at a
NARA facility.

Misuse of a NARA Computer
The CCU independently developed evidence a NARA employee misused a NARA computer to
store pornography. An investigation is ongoing.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 19
October 1, 2013 to March 31, 2014
INVESTIGATIONS

                                         OIG Hotline
The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept email communication from
NARA’s internal network or the Internet through the Hotline email system. Walk-ins are always
welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

   •   By telephone
       Washington, DC, Metro area: (301) 837-3500 

       Toll-free and outside the Washington, DC, Metro area: (800) 786-2551 

   •   By mail
       NARA OIG Hotline
       P.O. Box 1821 

       Hyattsville, MD 20788-0821 

   •   By email
       oig.hotline@nara.gov
   •   By Fax
       (301) 837-0879
   •   By online referral form
       http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and email to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition. Where
appropriate, referrals are made to OIG audit staff, NARA management, or external authorities.
Substantive Hotline contacts are captured as complaints in the Office of Investigations.

                            Hotline Activity for the Reporting Period
                    Hotline contacts received                                  4
                    Hotline contacts opened to Complaints                      1
                    Hotline contacts referred to other entity                  3
                    Hotline contacts closed to file                            0
                    Hotline contacts referred to OIG audit staff               0
                    Hotline contacts referred to NARA management               0


                         Contractor Self Reporting Hotline
As required by the Federal Acquisition Regulation, a web-based form allows NARA contractors
to notify the OIG, in writing, whenever the contractor has credible evidence a principal,
employee, agent, or subcontractor of the contractor has committed a violation of the civil False
Claims Act or a violation of Federal criminal law involving fraud, conflict of interest, bribery, or
gratuity violations in connection with the award, performance, or closeout of a contract or any
related subcontract. The form can be accessed through the OIG’s home page, or found directly
at http://www.archives.gov/oig/contractor-form/index.html.

SEMIANNUAL REPORT TO CONGRESS                                                               Page 20
October 1, 2013 to March 31, 2014
SIGNIFICANT DISAGREEMENTS

           Disagreements with Significant Management Decisions
Under the IG Act, as amended, the OIG reports “information concerning any significant
management decision with which the Inspector General is in disagreement.” The following
disagreements were first reported in our Semi-Annual Report to Congress for the period October
11, 2012 to March 31, 2013. However, as little has changed in this reporting period, they remain
an issue.

In November 2013, we reviewed NARA’s FY 2013 Draft Federal Manager’s Financial Integrity
Act (FMFIA) statement. We disagreed with the assurance statement for Section 2 of the FMFIA
reporting requirements. While the agency had introduced an entity-wide Internal Control
Program, the program had not developed enough to clearly reflect NARA’s internal control
environment. Without a fully implemented program able to identify, document, and test risks
and controls for each critical function, the agency is not able to identify all its existing risks and
potential weaknesses. As a result the agency’s FY 2013 assurance statement currently
underreports material weaknesses and does not accurately reflect the breadth of risks in NARA’s
Processing Program, Electronic Records Management, and Information System and Technology
Security.

NARA’s Processing Program

NARA’s FY 2012 assurance statement downgraded the Processing Program from a material
weakness to a reportable condition. NARA made this decision based on the current state of
Federal records processing, the strides the agency has made in the last six years, and the current
focus on reengineering processing work. The agency also made the decision to remove the
processing of Presidential records from this weakness since they believed the processes and
requirements with processing these records are distinctly different from Federal records.

Based on our assessment, NARA’s Processing Program should still be carried as a material
weakness for FY 2013. Our FY 2013 audit 3 found although NARA has made significant strides
in reducing the processing backlog since our last audit in 2007, additional effort is still needed to
reduce the material weakness and strengthen NARA’s Processing Program. Specifically, we
reported the strategic direction of processing needs to include an overall agency policy and
definition, adequate backlog reduction plans for Research Services field locations, plans for
increased processing progress in the Presidential libraries, improved processing staff utilization,
and a realistic and attainable processing goal. As a result, a processing backlog continues to
place records at risk, increasing the time for reference requests, impairing the agency’s ability to
describe the records online, and is limiting access to records.

NARA’s Electronic Records Management Program

NARA reported its Electronic Records Management program as a reportable condition instead of
a material weakness. This decision was predicated on the issuance of Presidential Memorandum
– Managing Government Records and OMB Memorandum 12-18. These documents represent

3 Audit Report No. 13-14, Audit of Processing Textual Records, dated September 18, 2013.

SEMIANNUAL REPORT TO CONGRESS                                                                 Page 21
October 1, 2013 to March 31, 2014
SIGNIFICANT DISAGREEMENTS

an Executive Branch-wide effort to reform records management policies and practices, and to
develop a 21st-century framework for managing Government records. Management is using
OMB Memorandum 12-18 to guide the development of the Chief Records Officer’s operational
plans for years to come, and to serve as an action plan against which NARA can monitor and
assess progress. However, the directive does not mitigate the existing risks outlined in our 2010
audit report OIG 10-04, NARA’s Oversight of Electronic Records Management in the Federal
Government. The report found NARA did not have adequate controls in place to protect
permanent Federal electronic records from loss. Specifically, we reported NARA could not
reasonably ensure permanent electronic records are being adequately identified, maintained, and
transferred to NARA in accordance with federal regulations. Until sufficient controls have been
implemented to minimize these risks, NARA should classify this program as a material
weakness.

NARA’s Information System and Technology Security

The Information System and Technology Security (IS&TS) was downgraded by management in
FY 2013 to a reportable condition from a material weakness. This decision was based on
management’s assertion various processes have been revamped to address prior
recommendations, including application of a new risk-ranking methodology, and instituting
metrics to monitor progress. We believe, as we did in previous years, management’s assessment
does not represent the true material weakness. Actions taken to risk-rank open
recommendations, and to develop metrics to track how Information Service is managing
recommendations, is not sufficient to correct the underlying problems continuing to plague
NARA’s IS&TS. The underlying issue is not NARA’s progress in closing open
recommendations, but rather its inability to successfully establish a program that identifies,
reports, and mitigates security concerns. Further, the decision to downgrade IS&TS cannot be
accurately made without first having results from an Internal Control Program that adequately
support the claimed risks, controls, and weaknesses.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 22
October 1, 2013 to March 31, 2014
TOP TEN MANAGEMENT CHALLENGES

                                         Overview

Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness; and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission
and help NARA achieve its strategic goals, we have aligned our programs to focus on areas we
believe represent the agency’s most significant challenges. We have identified those areas as
NARA’s top ten management challenges.

1. Electronic Records Archives
NARA initiated the Electronic Records Archive (ERA) program in order to address the challenge
of ingesting, preserving and providing access to our nation's electronic records for as long as
needed. However, virtually since inception the program has been fraught with delays, cost
overruns, and technical shortcomings and deficiencies identified by our office and the
Government Accountability Office (GAO). In August 2010, the Office of Management and
Budget (OMB) placed ERA on its high-priority list of 26 high-risk Federal IT projects. On
September 30, 2011, the development contract between NARA and Lockheed Martin
Corporation concluded. However, many core requirements were not fully addressed, and ERA
lacks the originally envisioned functionality.

The program is now in an Operations and Maintenance (O&M) phase under a 10-year, $240
million contract with IBM. The O&M tasks to be performed by IBM, under a firm-fixed-price
(FFP) arrangement, include: help desk operations, incident management, problem management,
hardware and software maintenance, asset and configuration management, deployment
management, capacity management, availability management, security services, backup and
recovery services, and ingest operations. The contract also includes replacing and updating the
technologies comprising ERA, and correcting and adapting ERA functionality as necessary to
meet stakeholder needs. These additional tasks will be performed under Technical Direction
Letters (TDLs), which may be either FFP or time-and-materials (T&M) arrangements.

ERA faces many challenges going forward, including addressing increased volumes of data to be
ingested and increased number of users to be supported now that ERA use is mandatory for all
Federal agencies. However, the greatest challenge will be NARA's ability (with vendor support)
to effectively meet stakeholder needs, while operating and maintaining a system whose
development failed to meet core benchmark requirements and lacks originally envisioned
capabilities.

2. Improving Records Management
Part of NARA’s mission is safeguarding and preserving the records of our government, thereby
ensuring people can discover, use, and learn from this documentary heritage. NARA provides
continuing access to the essential documentation of the rights of American citizens and the
actions of their government. The effective management of these records is key to accomplishing
this mission. NARA must work with Federal agencies to ensure the effective and efficient
appraisal, scheduling, and transfer of permanent records, in both traditional and electronic

SEMIANNUAL REPORT TO CONGRESS                                                           Page 23
October 1, 2013 to March 31, 2014
TOP TEN MANAGEMENT CHALLENGES

formats. The major challenge is how best to accomplish this component of our overall mission
while reacting and adapting to a rapidly changing technological environment in which
electronic records, particularly email, proliferate. In short, while the ERA system is intended to
work with electronic records received by NARA, we need to ensure the proper electronic and
traditional records are in fact preserved and sent to NARA in the first place.

In November 2011 a Presidential Memorandum titled Managing Government Records was
issued. This began a new executive branch-wide effort to reform records management policies
and practices. In August 2012, the Office of Management and Budget (OMB) issued
Memorandum 12-18, Managing Government Records Directive, creating a robust records
management framework. This Directive requires agencies, to the fullest extent possible, to
eliminate paper and use electronic recordkeeping. It is applicable to all executive branch
agencies and to all records, without regard to security classification or any other restriction. This
Directive also identifies specific actions to be taken by NARA, OMB, and the Office of
Personnel Management (OPM) to support agency records management programs. Agencies
must manage all permanent electronic records in an electronic format by December 31, 2019,
and must manage both permanent and temporary email records in an accessible electronic format
by December 31, 2016. NARA, its Government partners, and Federal agencies are challenged
with meeting these deadlines, determining how best to manage electronic records in accordance
with this guidance, and how to make ERM and e-Government work more effectively.

3. Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers’
Financial Integrity Act reporting process from FY 2007 to FY 2012. In 2013, NARA
reclassified and downgraded the material weakness in IT security to a reportable issue. This is
concerning when improvements and focused efforts are still needed to establish a mature
information security program.

Annual assessments of NARA’s compliance with the Federal Information Security Management
Act have consistently identified program areas in need of significant improvement. NARA has
some elements of an information security program, but real progress will not be made until
NARA establishes an effective system of internal control for information security. The
confidentiality, integrity, and availability of our electronic records and information technology
systems are only as good as our IT security infrastructure.

In FY 2012, an assessment performed by contractors identified multiple deficiencies with
NARA’s network architecture, many of which stem from the lack of strategic planning with
regard to the redundancy, resiliency and overall design of the network. These issues not only
allow for security and performance problems, but they inhibit NARA IT management from
effectively establishing a tactical and innovative strategy for the next generation of NARA’s
network. Each year, risks and challenges to IT security continue to be identified. NARA must
ensure the security of its data and systems or risk undermining the agency’s credibility and
ability to carry out its mission.




SEMIANNUAL REPORT TO CONGRESS                                                                Page 24
October 1, 2013 to March 31, 2014
TOP TEN MANAGEMENT CHALLENGES

4. Expanding Public Access to Records
The records of a democracy’s archives belong to its citizens. NARA’s challenge is to more
aggressively inform and educate our customers about the services we offer and the essential
evidence to which we can provide access. Unfortunately, approximately 33 percent of NARA’s
textual holdings have not been processed to allow efficient and effective access to these records.
To meet its mission, NARA must work to ensure it has the processes and resources necessary to
establish intellectual control over this backlog of unprocessed records.

Another challenge for NARA, given society’s growing expectation for easy and near-immediate
access to information online, will be to provide such access to records created digitally (“born
digital”) and to identify those textual records most in demand so they can be digitized and made
available electronically. NARA's Strategic Plan establishes Public Access as NARA’s “core
purpose,” but NARA’s digitization efforts to-date have resulted in limited success. Further,
ERA’s diminished access capabilities compound this problem. NARA’s role in ensuring the
timeliness and integrity of the declassification process of classified material held at NARA is
also vital to public access.

5. Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records
to meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to
ensure NARA’s own facilities, as well as those used by other Federal agencies, are in
compliance with these regulations; and to effectively mitigate risks to records which are stored in
facilities not meeting these standards.

6. Preservation Needs of Records
NARA holdings grow older daily, and face degradation associated with time. This affects both
traditional paper records, and the physical media that electronic records and audiovisual records
are stored on. Per management, preservation resources have not been able to adequately address
the growth in holdings needing preservation action. Preserving and providing access to records is
a fundamental element of NARA’s duties to the country, and NARA cannot provide access to
records unless it can preserve them for as long as needed. The backlog of records needing
preservation continues to grow. NARA is challenged to address this backlog and future
preservation needs, including the data integrity of electronic records. Further, NARA’s primary
tool for preserving electronic records, the ERA system, has not delivered the functionality
necessary to address record format obsolescence (see OIG Challenge #1). The challenge of
ensuring NARA facilities meet environmental standards for preserving records (see OIG
Challenge #5) also plays a critical role in the preservation of Federal records.

7. Improving Project Management
Effective project management, particularly for IT projects, is essential to obtaining the right
equipment and systems to accomplish NARA’s mission. Complex and high-dollar contracts

SEMIANNUAL REPORT TO CONGRESS                                                               Page 25
October 1, 2013 to March 31, 2014
TOP TEN MANAGEMENT CHALLENGES

require multiple program managers, often with varying types of expertise. NARA is challenged
with planning projects, developing adequately defined requirements, analyzing and testing to
support acquisition and deployment of the systems, and providing oversight to ensure effective
or efficient results within costs. Currently, IT systems are not always developed in accordance
with established NARA guidelines. These projects must be better managed and tracked to
ensure cost, schedule, and performance goals are met.

As an example, GAO reported NARA did not document the results of briefings to its senior
management oversight group during the development of NARA’s largest IT project, the ERA
program. There is little evidence the group identified or took appropriate corrective actions, or
ensured such actions were taken and tracked to closure. Without adequate oversight evaluating
project progress, including documenting feedback and action items from senior management,
NARA will not be able to ensure projects are implemented at acceptable cost and within
reasonable time frames. GAO also reports NARA has been inconsistent in its use of earned
value management (EVM), a project management approach providing objective reports of
project status and early warning signs of cost and schedule overruns. Inconsistent use of key
project management disciplines like EVM limits NARA’s ability to effectively manage projects
and accurately report on their progress.

8. Physical and Holdings Security
The Archivist has identified security of collections as a material weakness for the agency.
Document and artifact theft is not a theoretical threat; it is a reality NARA has been subjected
to time and time again. NARA must maintain adequate levels of security to ensure the safety
and integrity of persons and holdings within our facilities. This is especially critical in light of
the security realities facing this nation and the risk our holdings may be pilfered, defaced, or
destroyed by fire or other man-made and natural disasters. Not only do NARA’s holdings have
immense historical and financial value, but we hold troves of national security information as
well. Developments such as the creation of the Holdings Protection Team and implementation
of stricter access controls are welcome additions to NARA’s security posture and should be
commended. However, NARA must continually strive to improve in this area.

9. Contract Management and Administration
The GAO has identified Commercial Services Management (CSM) as a government-wide
initiative. The CSM initiative includes enhancing the acquisition workforce, increasing
competition, improving contract administration skills, improving the quality of acquisition
management reviews, and strengthening contractor ethics requirements. Effective contract
management is essential to obtaining the right goods and services at a competitive price to
accomplish NARA’s mission. NARA is challenged to continue strengthening the acquisition
workforce and to improve the management and oversight of Federal contractors. NARA is also
challenged with reviewing contract methods, to ensure a variety of procurement techniques are
properly used in accordance with laws, regulations, and best practices.




SEMIANNUAL REPORT TO CONGRESS                                                                 Page 26
October 1, 2013 to March 31, 2014
TOP TEN MANAGEMENT CHALLENGES

10. Management of Internal Controls
OMB Circular A-123, Management’s Responsibility for Internal Control, explains management
is responsible for establishing and maintaining internal controls to achieve the objectives of
effective and efficient operations, reliable financial reporting, and compliance with applicable
laws and regulations. GAO has reported NARA has not established an enterprise risk
management capability, thus reducing its ability to anticipate future challenges and avoid
potential crises. Currently, the agency has not established an effective internal control program,
and OIG audit recommendations from as far back as FY 2009 concerning an internal control
program have yet to be implemented. Thus, NARA is vulnerable to risks that may not be
foreseen or mitigated, and does not have the ability to self-identify and appropriately manage or
mitigate significant deficiencies. Establishment of an internal control program is critical as it
provides several benefits including (1) improved decision making, (2) risk identification,
management, and mitigation, (3) opportunities for process improvement, (4) effective use of
budgeted resources, and (5) strategic planning. NARA’s challenge is to ensure the agency is in
compliance with OMB Circular A-123 and to develop and fully implement an internal control
program.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 27
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS 

          AMENDED, AND OTHER LAWS 

REQUIREMENT            SUBJECT                                             PAGE(S)

Section 4(a)(2)        Review of legislation and regulations               7–8


Section 5(a)(1)        Significant problems, abuses, and deficiencies      2 – 3, 11 – 13, 

                                                                           21 – 27

Section 5(a)(2)        Significant recommendations for corrective action   2 – 3, 11 – 13

Section 5(a)(3)        Prior significant recommendations unimplemented     31

Section 5(a)(4)        Summary of prosecutorial referrals                  30

Section 5(a)(5)        Information or assistance refused                   31

Section 5(a)(6)        List of reports issued                              30

Section 5(a)(7)        Summaries of significant reports                    2 – 3, 11 – 13

Section 5(a)(8)        Audit Reports—Questioned costs                      31

Section 5(a)(9)        Audits Reports—Funds put to better use              32

Section 5(a)(10)       Prior audit reports with no management decision     31

Section 5(a)(11)       Significant revised management decisions            31

Section 5(a)(12)       Significant management decisions                    21 – 22, 31
                       with which the OIG disagreed

Section 5(a)(14)       Reporting on OIG peer review                        8–9

P.L. 110-181           Annex of completed contract audit reports           32

P.L. 104-106           Prior fiscal years’ open audit recommendations      33 – 49




SEMIANNUAL REPORT TO CONGRESS                                                     Page 28
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

STATISTICAL SUMMARY OF INVESTIGATIONS

Investigative Workload
        Hotline contacts received this reporting period                                 4
        Complaints opened this reporting period                                         23
        Investigations pending at beginning of reporting period                         15
        Investigations opened this reporting period                                     12
        Investigations closed this reporting period                                     10
        Investigations carried forward this reporting period                            20
Categories of Closed Investigations
        Fraud                                                                           0
        Conflict of Interest                                                            0
        Contracting Irregularities                                                      0
        Misconduct                                                                      1
        Larceny (theft)                                                                 0
        Other                                                                           6
Investigative Results
        Cases referred – accepted for prosecution                                       1
        Cases referred – declined for prosecution                                       0
        Cases referred – pending prosecution decision                                   0
        Arrest                                                                          0
        Indictments and informations                                                    0
        Convictions                                                                     2
        Fines, restitutions, judgments, and other civil and administrative recoveries   $0
        NARA holdings recovered                                                         3
Administrative Remedies
        Employee(s) terminated                                                          0
        Employee(s) resigned                                                            1
        Employee(s) suspended                                                           0
        Employee(s) given letter of reprimand or warnings/counseled                     0
        Employee(s) taking a reduction in grade in lieu of administrative action        0
        Contractor (s) removed                                                          0

        Individual(s) barred from NARA facilities                                       0


SEMIANNUAL REPORT TO CONGRESS                                                           Page 29
October 1, 2013 to March 31, 2014
        REPORTING REQUIREMENTS

                               SUMMARY OF PROSECUTORIAL REFERRALS
                                                  Requirement 5(a)(4)
        Accepted for Prosecution

        Theft of Funds from a Presidential Library
        The OI continues to work jointly with local enforcement to investigate allegations a former
        NARA employee stole funds from a Presidential library.

        Declined for Prosecution

        None.

        Pending Prosecutorial Determination

        None.


                                   LIST OF AUDIT REPORTS ISSUED
                                             Requirement 5(a)(6)
Report      Title                                   Date           Questioned   Unsupported    Funds Put to
No.                                                                Costs        Costs          Better Use
14-01       Audit of the Management and
            Oversight of NARA’s Energy Savings       01/30/2014         $0           $0          $8,484,000
            Performance Contracts
14-03       NARA’s FY 2013 Financial Statement
                                                     01/15/2014         $0           $0               $0
            Audit
14-04       Audit of the Use of Presidential
                                                     03/05/2014         $0           $0               $0
            Libraries by Outside Organizations
14-05       Audit of NARA’s Field Offices
                                                     03/11/2014         $0           $0               $0
            Acquisition Activity
14-07       Audit of NARA’s Payments to Federal
                                                     04/02/2014         $0           $0               $0
            Agencies (excluding GSA)




        SEMIANNUAL REPORT TO CONGRESS                                                            Page 30
        October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                  AUDIT REPORTS WITH QUESTIONED COSTS

                                       Requirement 5(a)(8)

                                             Number of
                                                                        DOLLAR VALUE
Category                                                         Questioned              Unsupported
                                              Reports
                                                                   Costs                    Costs

A. For which no management decision
                                                   0                    $0                    $0
   has been made by the commencement
   of the reporting period
B. Which were issued during the
                                                   0                    $0                    $0
   reporting period
   Subtotals (A + B)                               0                    $0                    $0
C. For which a management decision has
                                                   0                    $0                    $0
   been made during the reporting period
   (i) dollar value of disallowed cost             0                    $0                    $0
   (ii) dollar value of costs not
                                                   0                    $0                    $0
   disallowed
D. For which no management decision
   has been made by the end of the                 0                    $0                    $0
   reporting period
E. For which no management decision
                                                   0                    $0                    $0
   was made within 6 months



                             OTHER REQUIRED REPORTS


REQUIREMENT                           CATEGORY                                      SUMMARY
5(a)(3)               Prior significant recommendations unimplemented        See attached appendix.
5(a)(5)               Information or assistance refused                      None
5(a)(10)              Prior audit reports with no management decision        Management has concurred
                                                                             or disagreed with all issued
                                                                             reports. However, many
                                                                             management action plans are
                                                                             overdue.
5(a)(11)              Significant revised management decisions               None
5(a)(12)              Significant management decisions with which the        See pages 21 – 22.
                      OIG disagreed




SEMIANNUAL REPORT TO CONGRESS                                                                     Page 31
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

             AUDIT REPORTS WITH RECOMMENDATIONS THAT

                     FUNDS BE PUT TO BETTER USE

                                      Requirement 5(a)(9)




             CATEGORY                             NUMBER                   DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                   4                        $9,148,374
   the reporting period
B. Which were issued during the reporting
                                                      1                        $8,484,000
   period
   Subtotals (A + B)                                  5                       $17,632,374
C. For which a management decision has
                                                      0                            $0
   been made during the reporting period
   (i) dollar value of recommendations
                                                      0                            $0
        that were agreed to by management
        Based on proposed management
                                                      0                            $0
        action
        Based on proposed legislative
                                                      0                            $0
        action
   (ii) dollar value of recommendations
        that were not agreed to by                    0                            $0
        management
D. For which no management decision has
   been made by the end of the reporting              5                       $17,632,374
   period
E. For which no management decision was
   made within 6 months of issuance                   4                        $9,148,374




            ANNEX ON COMPLETED CONTRACT AUDIT REPORTS
Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
information on completed contract audit reports containing significant audit findings be included
as an annex to this report. While the OIG audited the ERA and other contracts during this
period, they were generally program audits as opposed to contract audits.




SEMIANNUAL REPORT TO CONGRESS                                                               Page 32
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                       Prior Fiscal Years' Open Audit Recommendations
 Report     Title Recommendation
 06-09      Review of NARA's Information Security Program
                    2a	   The Assistant Archivist NH should document policies and procedures for ensuring that
                          software products running on NARANET are current versions, still supported by the
                          software vendors.
                    2c	   The Assistant Archivist should immediately begin planning for the migration from Novell
                          Netware to another type of operating system software, e.g. Microsoft or Linux.
 06-10      Evaluation of NARA's Affiliated Archives Program
                    3     The Archivist should take appropriate measures to revise MOUs between NARA and
                          affiliates to incorporate current standards for housing NARA records.
                    4	    The Archivist should ensure that there is a mechanism to update the MOUs. Specifically, a
                          procedure should be established to update the MOUs on an interim basis, or when new
                          standards are implemented at NARA.
                    5	    The Archivist should ensure that all MOUs contain the required clause for the use of the
                          NARA seal.
                    6	    The Archivist should ensure that all affililiates meet the current storage standards or provide
                          waivers and time frames to have the affiliates become compliant with the NARA 1571
                          standards.
 06-11      Audit of System Adm. Rights and Controls
                    3     Ensure that changes made to the application, system, and security logs are capturing the
                          necessary information and not overwriting it until it is adequately reviewed and stored for
                          future use and correct incident in self-audit results.
                    5	    Ensure that Access Control lists are produced for all IT systems and used as a basis for
                          access validation.
 07-10      Review of Selected Security Aspects of NARA's Computer Network Environment
                    1a    Direct the CISO to perform a more comprehensive survey of computer network devices, to
                          identify any other unauthorized devices not identified by the earlier survey conducted in
                          response to RFC 1120.
                    1b	   When the recommended survey is completed, direct the FOSAs to immediately remove any
                          unauthorized devices connected to the commuter network.
                    1d	   Require NARAnet system administrators to periodically scan the network using automated
                          software tools to ensure that only approved devices are connected to the network.
 08-01      Audit of NARA Artifacts
                    1b    The Assistant Archivist for Presidential Libraries (NL) should ensure that the results of the
                          completed physical inventory are transmitted to NL and appropriately secured to serve as
                          control or master copies establishing a reliable baseline for each library's museum
                          collection.
                    1d    The Assistant Archivist for Presidential Libraries (NL) should ensure that once an initial
                          physical inventory has been completed, non-HVOs are reinventoried/verified in a timelier
                          manner than the current 5% or 1,000 items annually.
                    2c	   The Assistant Archivist for Presidential Libraries should ensure that policy and standards
                          are developed for linking digital images of items to their record in i/O, giving priority to
                          photographing HVOs and outgoing loan items.
                    5d	   The Assistant Archivist for Presidential Libraries should take the following actions in regard
                          to the Ronald Reagan Presidential Library and Museum: Procure storage hardware that is
                          appropriate for both the type of artifact and the fact the library is in a seismic zone, and
                          better configure the museum storage area in order to minimize damage to the artifacts and
                          improve the ease of access to them.


SEMIANNUAL REPORT TO CONGRESS                                                                            Page 33
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

 08-02      Audit of NARA's Purchase Card Program
                    13    The Assistant Archivist of Administration should direct the Director NAA to establish
                          written policies and procedures to evaluate the effectiveness of cardholder reconciliations
                          and approving officials certifying duties.
 08-04      HMS Review
                    4a    The CIO should ensure that employees with responsibilities for conducting project analysis
                          receive additional training for investment analysis regarding requirements, alternatives, and
                          costs/benefits.
 08-05      FY 07 FISMA Review
                    12    The Assistant Archivist for Information Services should develop and implement
                          management controls to monitor and enforce compliance with NIST SP 800-37 and NARA
                          C&A policy.
                    14    The Assistant Archivist for Information Services should develop and implement a
                          mechanism to monitor system accreditations for NARA's National Security Systems to
                          ensure the systems are re-certified and accredited at least every three years.
                    15b	 The Archivist along with NARA Senior Management and Information Owners should
                         develop recovery strategies for at least those systems identified as critical based on the
                         outcome of the Business Impact Analysis.
                    16b	 The Assistant Archivist for Information Services should implement management controls to
                         verify contingency plans are reviewed and updated at least annually as required by NIST SP
                         800-34
                    16c	 The Assistant Archivist for Information Services should update the contingency plans, if
                         needed, and record any changes made in the Record of Changes section of the plans.
                    17	 The Assistant Archivist for Information Services, along with the system owners, should
                         develop tests of the system contingency plans to evaluate the viability of the plan
                         procedures and determine the ability of recovery staff to implement the recovery strategy
                         identified.
                    18	 The Assistant Archivist for Information Services should develop a plan of action and
                         milestone process that provides visibility over all IT security weaknesses and issue written
                         procedures regarding that process.
                    19	   The Assistant Archivist for Information Services should develop a process to identify
                          employees with significant security responsibilities.
                    2	    The Assistant Archivist for Information Services should establish a process to review the
                          Remedy trouble ticket work logs daily and communicate with the CIRT team, if needed, to
                          ensure all events are fully investigated.
                    20	   The Assistant Archivist for Information Services should require all individuals with
                          significant security responsibilities, including contractor employees, to complete training
                          based on the risk provided by their activities and develop a process to monitor compliance.
                    6	    The Assistant Archivist for Information Services should conduct a review of open Remedy
                          tickets and direct the contractor, in writing, to address the vulnerabilities identified during
                          the completed server audits.
                    7	    The Assistant Archivist for Information Services should add security vulnerabilities
                          identified during the server audits to the system's plan of action and milestones to ensure
                          proper tracking and visibility.
                    8	    The Assistant Archivist for Information Services should conduct "lessons learned" meetings
                          in accordance with the guidance in NIST SP 800-61 when a major incident occurs and
                          periodically for lesser incidents, and develop and implement a control mechanism to verify
                          compliance.




SEMIANNUAL REPORT TO CONGRESS                                                                             Page 34
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

 08-07      Audit of the Researcher ID Card Program
                    1     Evaluate the enhanced security and customer service benefits that would accrue to NARA
                          and consider implementing an automated integrated researcher registration system at all
                          NARA facilities with research rooms.
                    3	    Require periodic monitoring of the Archives I and Archives II database. A log recording the
                          date of the review and corrective action taken should be maintained.
 09-01      Audit of the Controls Over Presidential Library Textual Records
                    1b    The Assistant Archivist for Presidential Libraries should ensure all libraries, in accordance
                          with NARA 1572, nominate selected staff for background checks required to access vaults
                          or other specially protected areas (and submit the list to NASS).
                    1c	   The Assistant Archivist for Presidential Libraries should ensure all libraries, in accordance
                          with NARA 1572, report storage methods and exact container locations to NASS.
                    1d	   The Assistant Archivist for Presidential Libraries should ensure all libraries, in accordance
                          with NARA 1572, report the names of staff with access to specially protected records to
                          NASS.
                    1e	   The Assistant Archivist for Presidential Libraries should ensure all libraries, in accordance
                          with NARA 1572, maintain inventories of SPRs.
                    3	    The Assistant Archivist for Administrative Services should ensure that the Security
                          Management Branch conduct reviews and initial certifications of SPR storage areas in a
                          timely manner. Criteria for the evaluation of SPR storage areas should be clearly articulated
                          and the method by which the evaluations will occur (if other than inspection) should be
                          documented. A provision should also be made ensuring results are clearly documented and
                          transmitted to the library, including any recommended remedial action.

 09-04      NR Compliance with Controls for Safeguarding Specially Protected Records
                    2     The Assistant Archivist for Administration should ensure the Security Management Branch
                          (NASS) initially certifies designated SPR storage areas. If this cannot be done via on-site
                          inspection because of time or budget constraints it should be done remotely through the
                          exchange of information necessary to allow NASS to either certify the specially protected
                          storage areas or communicate changes necessary to bring such holding areas into NARA
                          1572 compliance.
                    3     The Assistant Archivist for Regional Records Services should ensure regional archives are
                          in compliance with the revised procedures and defined requirements resulting from
                          recommendation 1. Specifically, they should meet the requirements for (a) nominating
                          selected staff with access to specially protected holdings for background checks and (b)
                          provide storage methods and container locations to NASS.

 09-05      Audit of NARA's IV6 Compliance
                    1     The Assistant Archivist for Information Services/CIO should ensure testing required by
                          OMB and outlined in the Federal CIO Council Architecture and Infrastructure Committee
                          "Demonstration Plan to Support Agency IPv6 Compliance," version 1.0 on NARA's
                          operational core network is performed and the test results required by the CIO Council to
                          demonstrate compliance are documented or obtain a written waiver from OMB.
                    3	    The Assistant Archivist for Information Services/CIO should ensure employees responsible
                          for planning, implementing, maintaining, and securing an IPv6 network for NARA receive
                          appropriate IPv6 training
 09-14      Audit of NARA's FY 2008 Management Control Program
                    1c    The NARA management control liaison should work with the offices and office
                          management control liaisons to review, and revise as necessary, the critical functions
                          contained in the management control plans. The revision to these plans should seek to
                          identify and rank risks to major program and functional areas and undertake internal control
                          reviews of major risk areas.


SEMIANNUAL REPORT TO CONGRESS                                                                            Page 35
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    2	    The Assistant Archivist for Administrative Services should ensure Annual Information
                          Security Self Inspection results are reviewed in a timely manner, instances of
                          noncompliance are identified, and corrective actions are monitored; and self inspections are
                          reviewed and documented in accordance with guidance concerning self-assessments
                          contained in NARA 114. If a formal process as referred to by the Information Security
                          Officer cannot be completed in time to facilitate the review of FY 2009 information security
                          self inspections, an alternate means of reviewing the checklists should be developed.

                    4	    The Assistant Archivist for Regional Records Services should ensure all program findings,
                          regardless of whether they are considered major or minor, are tracked to resolution and
                          supported by adequate documentation.
 09-15      Audit of NARA's Work at Home System
                    7     We recommend the CIO ensures that the WAHS meets OMB and NIST requirements prior
                          to full implementation.
 09-16      Audit of Processing and Safeguarding Veterans Requests
                    1     The Assistant Archivist for Regional Records Services should direct the Director, NPRC, to
                          export data for the "record of disclosure file" and follow the approved Records Disposition
                          Schedule and limit the amount of record requests stored online.
                    11	   The Assistant Archivist for Regional Records Services should review these vulnerabilities
                          and determine whether action is needed.
                    2	    The Assistant Archivist for Regional Records Services should direct the Director, NPRC, to
                          establish and enforce password requirements within CMRS that are appropriate based on the
                          sensitivity of the information contained in the system and the need to protect the integrity of
                          the information.
                    3	    The Assistant Archivist for Regional Records Services should direct the Director, NPRC, to
                          establish controls to restrict users to only those rights and views needed to perform their job.
                    5	    The Assistant Archivist for Regional Records Services should direct the Director, NPRC, to
                          limit users' ability to perform extracts of the database containing sensitive information or
                          remove access to CD burners and thumb drives.
                    6	    This audit recommendation contains information concerning an ongoing weakness which
                          could be used to compromise veteran’s information; or to exploit NARA programs,
                          operations, and systems if made public. Contact the OIG if you need more information.
                    7	    The Assistant Archivist for Information Services should encrypt backup tapes containing PII
                          as required by OMB Memorandum 06-16.
            Audit of NARA's Oversight of Electronic Records Management in the Federal
 10-04      Government
                    2	    The Archivist should consider using the authority given under title 44 of the US Code to
                          direct Federal agencies to perform assessments of their electronic records management
                          programs based on requirements contained in 36 CFR Part 1236.
                    3	    The Archivist should ensure NARA establishes a strategy for consistently and
                          systematically monitoring compliance with electronic records regulations and guidance
                          throughout the Federal Government.
                    4	    The Assistant Archivist for Records Services, Washington DC (NW) should ensure NARA's
                          strategy for monitoring and evaluating Federal agency compliance with electronic records
                          management regulations and guidance results in adequate identification and mitigation of
                          risks to permanent electronic records.
                    5	    The Assistant Archivist for Records Services, Washington DC (NW) should ensure
                          development of controls to adequately monitor agency scheduling of electronic records in an
                          effort to reasonably ensure electronic records/systems are scheduled in timely manner, and
                          therefore provide a reasonably accurate reflection of the universe.


SEMIANNUAL REPORT TO CONGRESS                                                                            Page 36
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    6	    The Assistant Archivist for Records Services, Washington DC (NW) should ensure a
                          methodology for verifying the accuracy/completeness of Federal agency responses to
                          electronic records scheduling requirements resulting from the E-Government Act of 2002.
                    7	    The Assistant Archivist for Records Services, Washington DC (NW) should ensure
                          development and application of a methodology for adequately identifying gaps in electronic
                          record accessions. This methodology should reasonably ensure permanent electronic
                          records are identified, scheduled, and ultimately obtained by NARA.

 10-05      Audit of NARA's Contract for IT and Telecommunications Support Services
                    1     The Director, Acquisitions Services Division (NAA) should, before exercising the option
                          for the first option year of the Capstone Task Order, ensure that the contracting officer
                          performs sufficient, documented research and analysis to determine if the T&M Task Order
                          is the most advantageous way to continue procuring information technology and
                          telecommunications support services for NARA. If exercising the option is not the most
                          advantageous way to continue acquiring these services, award a new, different type of
                          contract, e.g., firm-fixed-price that adequately protects the government's interests.

                    2	    The Director, Acquisitions Services Division (NAA) should, for future procurements
                          involving a T&M contract, ensure that contracting personnel comply with the FAR
                          requirement that a "Determination and Findings" be prepared.
                    3a	   The Director, Technical Services Division (NHT), in conjunction with the Contracting
                          Officer for the Capstone Task Order, should require the COTR for the agency's Task Order
                          with the Capstone Corporation to adequately document task order surveillance efforts.
                    3b	   The Director, Technical Services Division (NHT), in conjunction with the Contracting
                          Officer for the Capstone Task Order, should prepare a surveillance plan that supplements
                          the requirements of the Quality Assurance Surveillance Plan prepared for the task order.
                    3c	   The Director, Technical Services Division (NHT), in conjunction with the Contracting
                          Officer for the Capstone Task Order, should monitor and evaluate the contractor's
                          performance, to determine compliance with the Service Level Agreements requirements of
                          the task order.
                    4	    The Director, Acquisitions Services Division (NAA) should direct the CO for the NITTSS
                          Task Order to require contractor compliance with the contract's invoice submission
                          requirements including the (a) submission of signed timesheets or comparable data for
                          time-and-materials work and (b) identification of contract line item numbers (CLINs) and
                          sub-CLINs under which each employee worked.
                    5a	   The CO for the Capstone Task Order should direct the COTR for the Task Order to do away
                          with the requirement for the contractor to provide draft invoices for review.
                    5b	   The CO for the Capstone Task Order should direct the COTR for the Task Order to
                          document the results of her reviews of the draft invoices, share the results of her reviews
                          with the CO, and retain that documentation in her contract folder.
                    6	    The CO for the Capstone Task Order should direct the COTR to inform him/her, in a timely
                          manner, of any technical or contractual difficulties with contractor performance.
 10-07      Audit of NARA's Network Infrastructure
                    14    The Archivist should direct the Assistant Archivist for Information Services, Assistant
                          Archivist for Regional Records Services, and the Assistant Archivist for Presidential
                          Libraries to coordinate with the Assistant Archivist for Administration to develop a
                          mechanism to track access reviews and key inventories for computer rooms and other
                          locations where IT network infrastructure equipments is stored at the field sites.
                    15	   The Assistant Archivist for Information Services in conjunction with the Assistant Archivist
                          for Regional Records Services and the Assistant Archivist for Presidential Libraries should
                          periodically monitor the network environments at the field sites to ensure network
                          equipment and cables stored outside the computer rooms are protected.


SEMIANNUAL REPORT TO CONGRESS                                                                          Page 37
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    16	   The Assistant Archivist for Information Services in conjunction with the Assistant Archivist
                          for Regional Records Services and the Assistant Archivist for Presidential Libraries should
                          conduct a review to determine which facilities require racks and provide the necessary
                          racks.
                    17	   The Assistant Archivist for Information Services in conjunction with the Assistant Archivist
                          for Regional Records Services and the Assistant Archivist for Presidential Libraries should
                          perform a risk assessment for each of the field offices to determine whether changes to the
                          buildings are needed in order to properly protect network equipment.
                    5	    The CIO should create a firewall policy to establish rules for inbound and outbound traffic
                          and how the firewall will be managed and updated.
            Audit of the Process for Providing and Accounting for Information Provided to
 10-14      Researchers
                    1	    The Assistant Archivist for NW should establish formal written policies and procedures to
                          improve NW monitoring of the pull and refile process.
                    2	    The Assistant Archivist for NW should implement a centralized database for all of the NW
                          divisions involved in the processing of researchers requests for records and determine the
                          necessary information that should be included in the database.
 10-19      Audit of NARA's Management Control Program for FY 2009
                    1c    The Archivist should consider establishing a Senior Management Council to provide
                          oversight and additional accountability for the Internal Control Program.
                    2	    The Archivist, the Assistant Archivist for NA, and the Director of NPOL should ensure
                          recommendations from OIG Report 09-14 are implemented and previously identified
                          weaknesses are corrected.
 11-02      Network and Penetration Testing Oversight
                    1     NARA management apply the appropriate hot fix referenced in the vendor advisory on the
                          affected machines.
                    2a	   This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    2b	   This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    2c	   This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    2d	   This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    3a	   This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    3b	   This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    3c	   This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    3d	   This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    3e	   This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    6a	   NARA management immediately address corrective action for all vulnerabilities identified
                          as "high" and "critical" risk.
                    6b	   NARA Management evaluate the identified risks and corrective actions to address those
                          identified as "medium" and "low" risk vulnerabilities.
 11-05      Audit of Archives I & II Guard Service Contract
                    6     The Assistant Archivist for Administration should develop a new fitness standard to test the
                          physical fitness of the security officers that more closely resembles the requirements of the


SEMIANNUAL REPORT TO CONGRESS                                                                          Page 38
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                          contract.

 11-06      Audit of the NARANET Server Upgrade Project
                    1     The CIO should continue to closely monitor the NARANET Server Upgrade project to
                          ensure implementation deadlines are met and risks are minimized.
                    2	    The CIO should develop an IT Roadmap or forward plan to include specific strategies and
                          processes to regularly assess, upgrade, and maintain the NARANET infrastructure.
                    4	    The CIO should ensure alternatives are fully considered and analysis documented when
                          planning and executing the next NARANET upgrade.
                    7	    The CIO should assign responsibility to ensure the total costs and costs spent to date are
                          accurate on the Monthly Status Reports and add an independent verification process to the
                          Control Phase to verify cost figures.
 11-14      Audit of NARA's Foreign and Premium Travel
                    2a    Develop and implement a mandatory specialized training course for travelers and
                          authorizing officials reiterating their roles and responsibilities. Refresher courses should be
                          provided on a periodic basis.
                    2d	   Develop and implement procedures to follow up on travel vouchers not submitted within
                          five working days. Take appropriate action for people who do not comply within five
                          working days.
                    3	    Create a webpage within NARA@work which includes all travel information including but
                          not limited to links to the FTR, NARA 601, the travel card application and agreement, and
                          NABF contacts.
                    6a	   Review and update policy and procedures for issuing travel cards to employees. Include
                          additional restrictions as outlined in OMB Circular A-123 on cardholders with credit scores
                          less than 660.
                    6b	   Enhance procedures to perform timely periodic reviews of the appropriateness of
                          individually and centrally billed travel cards to help ensure the effectiveness of travel card
                          expenditures controls. Specifically, as outlined in OMB Circular A-123 review ATM cash
                          withdrawals for reasonableness and association with official travel.

 11-15      Audit of NARA's Drug Testing Program
                    2     Amend NARA TDP's to ensure compliance with the SAMHSA's Interagency Coordinating
                          Group Executive Committee Guidelines for the Selection of Testing Designated Positions
                          and establish a mechanism to periodically review and update TDPs as necessary.
                    3	    Develop a training course for all supervisors that will aide them in recognizing and
                          addressing illegal drug use by agency employees. This training should be mandatory for all
                          supervisors. Also evaluate the current drug awareness training for employees.
                    4	    Develop a retention plan for all drug testing related documentation consistent with the
                          guidance issued by SAMHSA.
                    5	    Review NARA's Drug Free Workplace Plan and update it as necessary. In addition, a plan
                          for periodic reviews and updates of the Plan document should be developed.
 11-20      Audit of NARA's Telework Program
                    1c    Establish a cross functional team with the Office of Information Services (1) to ensure
                          remote access capabilities will meet increased NARA telework demands and to ensure
                          appropriate security guidance is included in NARA telework policy.
                    1d	   Develop a method and common criteria for tracking telework participation.
                    3a	   The Executive for Information Systems, CIO, and Executive for Business Support Services
                          should ensure all deferred and failed security tests have been reassessed and the results
                          documented.
                    3d	   Monitor compliance with HSPD-12 to ensure established deadlines are met.



SEMIANNUAL REPORT TO CONGRESS                                                                            Page 39
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    3e	   Review Citrix security configurations for adequacy.
                    3g	   Develop a plan with General Counsel to protect PII and NARA proprietary information
                          from being distributed or compromised over the network and email system.
 12-02      Audit of the Management of Records at the Washington National Records Center
                    11a	 This audit recommendation contains information concerning security deficiencies in
                         NARA's handling of national security classified materials, and has not yet been made
                         publicly available.
                    11b	 This audit recommendation contains information concerning security deficiencies in
                         NARA's handling of national security classified materials, and has not yet been made
                         publicly available.
                    12b	 This audit recommendation contains information concerning security deficiencies in
                         NARA's handling of national security classified materials, and has not yet been made
                         publicly available.
                    11c	 This audit recommendation contains information concerning security deficiencies in
                         NARA's handling of national security classified materials, and has not yet been made
                         publicly available.
                    11d	 This audit recommendation contains information concerning security deficiencies in
                         NARA's handling of national security classified materials, and has not yet been made
                         publicly available.
                    13a	 This audit recommendation contains information concerning security deficiencies in
                         NARA's handling of national security classified materials, and has not yet been made
                         publicly available.
                    13b	 This audit recommendation contains information concerning security deficiencies in
                         NARA's handling of national security classified materials, and has not yet been made
                         publicly available.
                    14b	 This audit recommendation contains information concerning security deficiencies in
                         NARA's handling of national security classified materials, and has not yet been made
                         publicly available.
                    5	   The Executive of Agency Services should require AFO-SD to perform periodic monitoring
                         to ensure only individuals with the appropriate levels work in the Vault.
                    7b	 Establish a procedure to ensure combinations are changed as soon as reasonably possible
                         upon departure of an individual who had knowledge of the combination.
                    7c	 Ensure periodic reviews of Vault access are performed.
                    9a	   The Executive of Agency Services should ensure employees and contractors are restricted
                          from entering AFO-SD through the loading dock doors.
                    9b	   Ensure a policy that requires rear entrance doors to be kept closed and locked is designed,
                          implemented, and enforced.
                    9c	   Ensure a policy that requires couriers to furnish identification and agency manifest
                          documents when approaching the loading docks is developed, implemented and enforced.
                    9d	   Ensure a staff person or contractor guard is dedicated to monitor the loading docks at all
                          times.
 12-05      Audit of the management of Records at the Washington National Records Center
                    10    The Executive of Agency Services should ensure a plan is developed to help all agencies
                          transition to fully using all of the features available in ARCIS's Customer Portal.
                    11	   The Executive of Agency Services should ensure explicit requirements are communicated to
                          agencies on how boxes should be transferred to FRCs. When boxes do not meet these
                          requirements FRCs should correct the problems and enforce the policy of billing agencies
                          for the additional costs to correct the problems.
                    12a	 Procedures for all WNRC processes are documented. Review existing procedures and
                         update as necessary.
                    12b	 Procedures between unclassified and classified processes are consistent where possible.


SEMIANNUAL REPORT TO CONGRESS                                                                          Page 40
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    1a	   The Executive of Agency Services should ensure a robust review process for records
                          received at WNRC is implemented and monitored.
                    1b	   The current policy of requiring cleared personnel to receive all classified records is enforced
                          and monitored.
                    2	    The Executive of Agency Services should ensure a formal tracking mechanism is
                          implemented for new records received but stored in the hallways due to lack of shelving
                          space.
                    3a	   A Problem Resolution Process is created for all problems, regardless of whether they are
                          considered major or minor. All problems should be tracked to resolution and supported by
                          adequate documentation.
                    3b	   A mechanism to facilitate the problem tracking and resolution process is implemented.
                    4a	   The Executive of Agency Services should ensure a vendor is secured to destroy non-textual
                          records.
                    4b	   The Executive of Agency Services should ensure records already approved for disposal are
                          destroyed.
                    4c	   The Executive of Agency Services should ensure the disposal review process is streamlined.
                    5	    The Executive of Agency Services should ensure a process to perform periodic inventories
                          of the records held at WNRC is documented and implemented. This process should be
                          systematic and repeatable.
                    6b	   A detail review of the record storage areas is performed to assess the conditions of records
                          stored at WNRC Problems identified should be corrected.
                    6c	   Employees are reminded of the importance of safeguarding records, including what to do
                          when boxes deteriorate or no longer support the stored contents.
                    7	    The Executive of Agency Services should ensure accounts for separated or terminated
                          employees are terminated in a timely manner. Also quarterly reviews of access to ARCIS
                          should be performed to identify whether user accounts access is appropriate.
                    8	    The Executive of Agency Services should ensure management designs and implements
                          monitoring activities for records processed at WNRC including weekly, monthly, and
                          quarterly reports.
                    9a	   The Executive of Agency Services should ensure appropriate training is provided to Vault
                          personnel on the Classified SOP.
                    9c	   A monitoring process is implemented for ensuring classified operations are performed as
                          written in the Classified SOP.
                    9d	   The Classified SOP is reviewed on an annual basis and updated when necessary.
 12-09      Audit of NARA's Data Center Consolidation Initiative
                    1a    The CIO should update the Master System List and/or the Enterprise Architecture to
                          incorporate NARA's data center consolidation goals, including the approach, rationale, and
                          a preliminary timeline of activities.
                    1b	   The CIO should update the Master System List and /or Enterprise Architecture to
                          incorporate energy usage calculations.
                    1c	   The CIO should update the Master System List and/or the Enterprise Architecture to
                          incorporate realistic estimates of funding needed or savings to be realized from
                          implementing NARA's data center consolidation goals.
                    1d	   The CIO should update the Master System List and/or the Enterprise Architecture to
                          incorporate annual savings metrics such as rack count reduction, server count reduction,
                          energy usage reduction, and energy cost reduction to monitor progress.
                    2	    The CIO should update transition plans within the Enterprise Architecture annually to
                          outline the year-by-year evolution of NARA's applications and supporting IT infrastructure
                          in the context of OMB's guidance on cloud-first deployment and consolidation.



SEMIANNUAL REPORT TO CONGRESS                                                                            Page 41
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    3	    The CIO should conduct the consolidation/virtualization analysis to investigate the impact
                          of consolidating or virtualizing two major application domains (NISP and ERA) and the
                          General Support System (NARANET) as planned or evaluate other alternatives to increase
                          the average server utilization rate.
                    4	    The Executive for Business Support Services should evaluate the current organization of
                          rack space and determine whether servers can be consolidated into fewer racks when
                          considering space optimization, power consumption, operations management, and
                          component failure/recovery perspectives.
                    5	    The CIO should review and approve the annual Enterprise Architecture update to ensure
                          that the agency is considering OMB's cloud first policy and guidance on virtualization and
                          consolidation.
 12-10      Follow up Audit of Artifacts
                    1a    The remaining five libraries complete baseline inventories as expeditiously as possible with
                          master copies forwarded to LP.
                    1b	   The remaining five libraries performing baseline inventories complete legacy reconciliation
                          to identify discrepancies as expeditiously as possible and all libraries with identified
                          discrepancies take action to resolve the discrepancies.
                    1d	   The time-lapse between inventory cycles is completed I a timelier manner than the current
                          guide of seven to ten years for libraries with larger collections, or an analysis has been
                          completed to indicate that the current guidance is appropriate.
                    1e	   Interim steps are developed to document and monitor deleted records from the current
                          collections database system or a replacement database is implemented.
                    1f	   Photographs of all VV artifacts and artifacts on loan are completed, and all libraries
                          establish plans to photograph their remaining collection.
                    1g	   The detailed policies and procedures for deaccessioning artifacts are finalized.
                    1h	   Appropriate storage hardware for the Reagan Library is procured and installed.
                    2a	   Develop and identify an appropriate staffing plan for museum operations. The plan should
                          1) align with collection sizes and life cycles, (2) include temporary staff other staffing
                          alternatives to support collection inventories and other core collection work, and (3) identify
                          the planned inclusive time periods devoted to the collection inventory.
                    2b	   Review and revise current time-guidance policy, as appropriate, for baseline inventories for
                          newly established Presidential Libraries.
                    3a	   Clarify/Develop guidance regarding the process for resolving and managing outstanding
                          anomalies as the completion of the baseline inventory including procedures to report all
                          missing artifacts to the OIG and Holding Protection Team.
                    3b	   Develop a format for reporting anomalies that includes a curatorial ranking or other
                          characterization of open anolomies.
                    4	    Develop management controls to minimize the risks associated with a lack of separation of
                          duty over the safeguarding of Presidential artifacts.
                    5a	   Clarify policy concerning what should be classified as a V/V artifact. An appropriate lists
                          needs to be developed to ensure those artifacts requiring additional stewardship measures
                          are included.
                    5b	   Develop documentation guidelines that identify the importance of supporting the conclusion
                          reported on the annual V/V reports. When counting objects, the support documentation
                          should show the same count.
                    5c	   Develop an annual V/V report format the prompts the preparer of the report to include the
                          requested data.
                    6a	   Separation of duty policies are developed and efforts to minimize the possible unauthorized
                          removal of Presidential gifts from courtesy storage with compensating controls.



SEMIANNUAL REPORT TO CONGRESS                                                                            Page 42
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    6b	   Reconciliation procedures between the completed inventories and White House legacy
                          documentations for both Bush 43 and Obama administrations as a compensating
                          management control until the separation for duties issue at LM are mitigated.
                    6c	   Policy is developed for a security escort when picking up HVO gifts from the White House
                          for courtesy storage at NARA.
                    7a	   Policies and procedures are clarified and reiterated to library personnel concerning 1)
                          sequestration of museum artifacts from library personnel other than museum personnel, 2)
                          procedures to periodically review access logs and security camera tapes.
                    7b	   Policies and procedures for Presidential Library artifacts on long-term loan are re-iterated
                          and disseminated to library personnel concerning 1) the annual update of loan agreements
                          and 2) requirements for long-term loans including photo requirements and
                    7c	   Reiterate NARA policy to adequately backup inventory-related collection documentation.
                    8a    Update comprehensive set of museum collection management policies and procedures and
                          ensure their development.
                    8b    Establish procedures to periodically review and, if necessary, revise said policies and
                          procedures.
 12-11      NARA's Network Assessment Audit
                    1     This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    10    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    12    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    13    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    14    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    17    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    18    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    19    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    2     This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    20    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    23    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    24    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    25    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    26    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    27    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    28    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    32    This recommendation contains information about IT deficiencies which, if made public,


SEMIANNUAL REPORT TO CONGRESS                                                                           Page 43
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                          could endanger NARA systems. Please contact the OIG if you need further information.
                    33    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    34    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    35    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    37    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    38    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    4     This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    40    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    41    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    42    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    44    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    45    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    47    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    48    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    50    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    51    This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    6     This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    7     This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    8     This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
                    9     This recommendation contains information about IT deficiencies which, if made public,
                          could endanger NARA systems. Please contact the OIG if you need further information.
 12-12      Audit of NARA's Parking Program
                    1a	   Establish a deadline to have the LPR system operational and able to read license plates at an
                          acceptable read accuracy percentage at A2's three entrances before acceptance of the
                          system. If the LPR system cannot be made operational and cannot read license plates at an
                          acceptable read accuracy percentage at AII's three entrances by this deadline then NARA
                          needs to implement a new strategy to control parking at AII that reduces its reliance on the
                          LPR system.
                    1b	   Re-examine the sufficiency of the parking controls in place at the Pepco Lot.




SEMIANNUAL REPORT TO CONGRESS                                                                          Page 44
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

 12-14      Audit of OGIS
                    2     Director of OGIS through the budget process define the resources necessary to better
                          accomplish the statutory requirements of the office. If NARA budget staffing limitations
                          and competing priorities negate NARA's abilities to fund the requirements of OGIS, we
                          recommend this condition be reported to the appropriate external stakeholders.

 12-15      Audit of NARA's Classified Systems
                    1     The Executive for Information Services/CIO, in coordination with the Chief Operating
                          Officer, should ensure all classified system authorization packages are updated in
                          accordance with NARA policy.
                    2	    The Executive for Information Services/CIO, in coordination with the Chief Operating
                          Officer, should establish a timeframe for review and approval of authorization documents.
                    3	    The Executive for Information Services/CIO, in coordination with the Chief Operating
                          Officer, should develop a continuous monitoring strategy for classified systems requiring
                          system owners on at least a quarterly basis to assess security controls and inform
                          authorizing officials when changes occur that may impact the security of the system.
                    4	    The Executive for Information Services/CIO, in coordination with the Chief Operating
                          Officer, should obtain authorizations to operate for each of the classified systems or
                          disallow them in accordance with NARA and Federal policy.
                    8	    The Executive for Information Services/CIO, in coordination with the Chief Operating
                          Officer, should ensure all contingency plans are updated, completed, reviewed, and tested in
                          accordance with NARA policy.
 12-17      Audit of NARA's Public Transit Subsidy Program
                    3     Require employees to affix a copy of the applicable state or local transit authority online trip
                          planner or other documentation supporting their commuting expenses to their application for
                          transit benefits.
 13-01      Audit of NARA's Internal Controls Program for FY 2010
                    1a    The MCOC becomes more involved in the decision-making and implementation plan for the
                          ICP. Additionally, periodic reports must be presented to the MCOC to review the progress
                          of the ICP.
                    1d    Resources are employed to develop and implement the ICP including but not limited to a
                          Chief Risk Officer, additional employees or contractors, and the purchase of appropriate
                          ICP software.
                    1e    Risk management responsibilities are included in the performance plans for program and
                          function owners.
                    1f	   Prior recommendations from previous OIG and GAO reports are closed.
                    1g	   A Risk Management Policy is created to communicate NARA's commitment to enterprise
                          risk management.
                    1i	   A training plan is developed that encompasses educating the agency on risks and internal
                          control. Additionally training is provided to all individuals responsible for executing the
                          ICP, including program owners function owners and MCOC members.
 13-03      Audit of ERA Preservation Efforts
                    1     The CIO should ensure the ERA Program Manager follows NARA 805 SDLC Handbook
                          and System Development Guidelines for any enhancements or modifications to ERA
                          including the Requirements Definition Activity and Requirement Review Process.
                    2	    The CIO should establish a test environment for ERA that is representative of the
                          production environment and use this test environment to ensure future enhancements or
                          modifications to the system perform in accordance with specified technical and contractual
                          requirements.
                    3	    The CIO should implement a process for documenting, analyzing, and tracking suggestions
                          and recommendations made by ERA stakeholders and ACERA.


SEMIANNUAL REPORT TO CONGRESS                                                                            Page 45
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    4	    The CIO should conduct and document a thorough assessment of the production version of
                          the ERA system's preservation framework capabilities.
                    5	    The CIO should establish a quality control process for reporting ERA preservation status to
                          internal and external stakeholders and the public.
 13-08      Audit of NARA's Preservation Program (Textual)
                    1a	   The Archivist should ensure an overarching preservation strategy is developed.
                          Additionally, a risk based approach to holistically assess the agency's preservation needs
                          and design the agency's preservation plan should be implemented.
                    1b	   The Archivist should ensure an analysis is conducted of the organizational structure and
                          responsibilities of each office involved in preservation. This should include a determination
                          whether the preservation strategy can be effectively implemented with a decentralized
                          structure, or if one NARA office should have authority over the entire Preservation
                          Program.
                    2	    The Chief Innovation Officer and Executives for Research Services and Legislative
                          Archives, Presidential Libraries and Museum Services should ensure comprehensive
                          preservation policies and procedures for each of their organizations are developed and/or
                          updated.
                    3a	   The Chief Innovation Officer and Executives for Research Services and Legislative
                          Archives, Presidential Libraries and Museum Services completely identify the resources
                          necessary to adequately accomplish NARA's preservation mission.
                    3b	   Develop a plan to identify the complete universe of textual and non-textual records that
                          require preservation.
                    4	    The Executive for Research Services should ensure a detailed analysis is performed and
                          communicate about the risks versus the benefits associated with not using the existing risk
                          assessment data to calculate the backlog for the Washington Area Archives.
                    5a	   The Executive for Research Services should ensure an analysis is performed to determine if
                          additional risk assessments for the Washington Area Archives and Presidential Libraries
                          including older holdings should be completed. Identify the risks for not completing the
                          assessments.
                    5b	   The Executive for Research Service should ensure additional measurable performance
                          metrics are developed and implemented to track the progress within the Preservation
                          Program.
                    5c	   The Executive for Research Services should ensure a cost benefit analysis for the HMS
                          circulation Module is completed. Request required resources if the cost benefit analysis
                          identifies benefits to the agency.
                    5d	   The Executive for Research Services should ensure Denver, St. Louis, and Special Media
                          implement HMS to record risk assessments.
                    6	    The Executive for Legislative Archives, Presidential Libraries and Museum Services should
                          ensure an analysis is performed to identify whether HMS should be implemented across the
                          Libraries. If it is decided HMS will be implemented a timeline should be established. If it
                          is decided HMS will not be implemented identify (1) how the existing system will meet the
                          agency's preservation needs and (2) obstacles and risks for not implementing HMS.

 13-09      NARA's Data Backup Operations
                    1     The CIO should create a full backup of the EOP instance of ERA as soon as the upgrade and
                          data migration is complete.
                    10	   The CIO, the Director of Acquisition Services, and NARA's Office of General Counsel
                          should review purchases made for offsite storage costs to determine whether NARA's
                          procurement process and Federal appropriations laws were violated and if so take
                          appropriate corrective action.
                    11	   The CIO, the Director of Acquisition Services, and NARA's Office of General Counsel
                          should review language in the NITTSS contract an determine whether payments NARA
                          made for offsite storage were proper, and what, if any, remedies are available.


SEMIANNUAL REPORT TO CONGRESS                                                                           Page 46
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    2	    The CIO should encrypt backup tapes containing sensitive PII or devise another method of
                          protecting the data that provides a similar level of security.
                    3	    The CIO should include the restoration of files from backups as part of the annual
                          contingency plan testing for at least high impact systems such as ERA and CMRS.
                    4	    The CIO should develop a process to regularly test data backups to verify information
                          integrity.
                    5	    The CIO should develop increased oversight procedures for the process of sending backup
                          media offsite to ensure media is rotated offsite as prescribed.
                    6	    The CIO should evaluate the risks associated with storing backup tapes within the same
                          geographic area as AII and determine whether the current strategy is sufficient.
                    7	    The CIO should create or update Backup and Recovery Plans and Procedures for the Case
                          Management and Reporting System.
                    8	    The CIO should review the current list of Iron Mountain containers assigned to NARA and
                          return those containers that are no longer needed.
                    9	    The CIO should examine the contents of those containers marked as permanent and
                          determine whether permanent storage is still required.
 13-10      NARA Archival Facilities
                    1a    The COO should ensure a comprehensive review of the Standards is completed.
                          Additionally roles and responsibilities for offices involved in the execution of the directive
                          are clearly defined
                    1b    The COO should ensure a plan is developed including a timeline for when the archival
                          storage facility reviews will be completed.
                    1c	   The COO should ensure an accurate listing of facilities currently compliant with the
                          Standards along with the area of deficiencies is identified and communicated.
                    1d	   The COO should ensure resources needed to make all archival storage facilities compliant
                          by 2016 are identified. If the facility cannot be brought into conformance with the
                          Standards, determine and document what mitigating actions have been implemented.
                    1e	   The COO ensure PMRS is updated to accurately reflect percentage of archival holdings in
                          appropriate space.
 13-11      Audit of ERA Ingest Efforts
                    1     The COO assess Federal agency usage of Base ERA and implement a process to improve
                          the records management workload and records management practices that exist between
                          NARA and Federal agencies to ensure electronic records are being properly transferred.
                    2	    The COO identify the most efficient and effective method of ingest and require Federal
                          agencies to follow this method when transferring electronic records into base ERA. In
                          addition this information should be properly disseminated to Federal agencies.
                    3	    The COO work with NARA's Chief Information Officer to continue the detailed analysis of
                          race conditions related to Base ERA. After the conclusion of this analysis NARA should
                          use the information learned to create a plan to analyze and correct the issues identified.
 13-12      Audit of the NARA IDS
                    1     The CIO should evaluate the access requirements each user needs to perform their job
                          responsibilities, limit the global administrator privilege to only those whose job
                          responsibilities require the exclusive permissions, and establish permission groups allowing
                          users to access limited reports or functionalities within the system.
                    10	   The CIO should perform a cost benefit analysis for enabling the intrusion prevention option
                          for the network-based IDPS.
                    11	   The CIO should evaluate the rule sets of the IDPSs for NARA's network on a periodic basis
                          to ensure proper rules have been selected and enabled to effectively detect and prevent
                          intrusive attacks.



SEMIANNUAL REPORT TO CONGRESS                                                                            Page 47
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

                    12	   The CIO should ensure the preliminary reporting of all incidents and events reportable to
                          US-CERT is made with the specified timeframes. Further details on the incident or event
                          gathered after the original reporting should be communicated to US-Cert as an update.
                    13	   The CIO should ensure the resolution process for a computer incident is appropriately
                          monitored and reviewed on a timely and periodic basis to minimize erroneously closed
                          incident tickets and the unnecessary time gaps between the resolution steps.
                    14	   The CIO should ensure incident response tabletop exercises are conducted for staff
                          performing and/or supporting computer security incidents on at least an annual basis, and
                          practical and relevant topics to NARA's computing environment are covered within the
                          exercises.
                    15	   The CIO should develop a policy for CIRT members to take training at least on an annual
                          basis to ensure they remain up to date with current patterns/types of cyber attacks and
                          effective, efficient incident remediation methodologies.
                    16	   The CIO should fully develop and document a process for reviewing the list of individual
                          with access to systems hosted in NARA's computer rooms, define the frequency of the
                          review in accordance with system categorization and availability requirements and ensure
                          the frequency is properly documented in the system's SSP.
                    17	   The CIO should fully develop and document the process for reviewing visitor logs for
                          NARA's computer rooms, including clearly defined review frequencies and assignment of
                          the duties to appropriate individuals for performing reporting and acting upon the review.
                    18	   The CIO should fully develop and document the policies and procedures for a cable
                          management system, including labeling using proper cable ties and or trays and periodic
                          inspection of the cables for the HIPS and anti virus management system.
                    2	    The CIO should systematically enforce password parameters for system users at the
                          application level consistent with NARA's Enterprise Architecture password requirements.
                    3	    The CIO should consider re-evaluating the rule sets currently in use by the system for
                          detection accuracy and customizing them to potentially reduce the number of intrusive
                          attempts going undetected.
                    4	    The CIO should consider conducting a cost-benefit analysis on deploying the system to all
                          NARA unclassified system connected to the network.
                    5	    The CIO should develop a comprehensive quality assurance surveillance plan that includes
                          the services provided by the contract, surveillance methods for each service, and designation
                          of the surveillance monitoring duties to appropriate individuals or offices.
                    6	    The CIO should develop a comprehensive method to verify that the actual performance data
                          included on the contractor's Monthly Compliance Reports is complete and accurate for each
                          service provided by the contractor.
                    7	    The CIO should develop a comprehensive process to ensure SLA credits are requested in a
                          timely manner by designated individuals at NARA and to verify whether the amount of
                          credit received is accurate based on the SLA type and number of consecutive months the
                          SLA miss occurred.
                    8	    The CIO should request corrected Monthly Compliance Reports including the actual
                          performance values for all services NARA procured from the contractor for the last six
                          months review the reports to determine whether there were any unmet SLAs for which
                          NARA would be entitled to a credit, and request the identified credit(s), if any, in
                          accordance with the contract.
                    9	    The CIO should create a process to ensure information pertinent to performance of the
                          contract including agreed upon procedures for securing the network is properly
                          communicated to and from the contractor and among the individuals at NARA whose job
                          responsibilities require attention to such information.




SEMIANNUAL REPORT TO CONGRESS                                                                          Page 48
October 1, 2013 to March 31, 2014
REPORTING REQUIREMENTS

 13-14      Audit of the Processing of Textual and Electronic Records
                    1	    The Archivist should ensure an analysis is conducted of the organizational structure and
                          responsibilities of each office involved in processing. This should include a determination
                          whether the processing strategy can be effectively implemented with a decentralized
                          structure, or if one NARA office should have authority over the entire Processing Program.
                    2a	   The Executive of Research Services should coordinate with the Executive for Legislative
                          Archives, Presidential Libraries and Museums to develop a processing policy and agency
                          definitions. This policy and definition should highlight the difference between Federal
                          records processing and processing of Presidential records.
                    2b	   The Executive of Research Services should ensure the San Bruno, St. Louis, and Chicago
                          field locations have a current processing backlog reduction plan. These plans should be
                          developed yearly and updated periodically during the year as necessary.
                    2c	   The Executive of Research Services should ensure the cost benefit analysis study on serving
                          unprocessed records is completed, and ensure it outlines the risks and benefits of serving
                          unprocessed records with an appropriate strategy consistent across the agency.
                    2d	   The Executive of Research Services should conduct a workload analysis to determine if
                          resource allocation between AI and AII is appropriate.
                    3	    The Executive for Legislative Archives, Presidential Libraries and Museums should (a)
                          analyze the backlogs at the pre-PRA libraries and create processing plans for reducing the
                          backlogs at these libraries on a more accelerated basis; (b) assess if there are additional way
                          to accelerate processing at the PRA libraries; (c) work with the Performance and
                          Accountability Office to update the PMRS metadata to require an ARC entry prior to
                          considering Presidential records processed.
                    4	    The Executive for Research Services and the Executive for Legislative Archives,
                          Presidential Libraries and Museums, should work with the Performance and Accountability
                          Office to reassess current processing goals and make changes to the goals.
                    5a	   The Executive for Legislative Archives, Presidential Libraries, and Museum Services
                          should work with the Performance and Accountability Office to develop a performance
                          measure for tracking the process of electronic presidential records.
                    5b	   Determine the true backlog of electronic presidential records and determine if additional
                          resources are needed and can be obtained to handle the increased workload.
                    6	    The Executive for Legislative Archives, Presidential Libraries and Museums and the
                          Executive for Research Services should ensure a review is performed to validate the
                          accuracy of processing data supplied to the Performance and Accountability Office.
                    7	    The Executive of Research Services should ensure procedures for all field locations are
                          documented. Review existing procedures and update as necessary.
                    8	    The Executive for Legislative Archives, Presidential Libraries and Museums should ensure
                          procedures for all Presidential libraries are documented, and review existing procedures and
                          update them as necessary.
 13-15      NARA's Handling of Paper-Based Disclosure of Personally Identifiable Information
                    1     Assess the current process of providing a copy of military or civilian personnel records to
                          the requestor and enhance the control to minimize instances of incorrect records being sent
                          to the requestor.
                    2	    Develop a process to ensure erroneously sent copies of the records containing PII are
                          properly returned to NARA and matched to the complaints.




SEMIANNUAL REPORT TO CONGRESS                                                                            Page 49
October 1, 2013 to March 31, 2014
